<html>
<title> - [H.A.S.C. No. 112-50]HOW DOES THE NAVY GET READY, AND WHERE ARE WE TODAY?</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



                                     

                         [H.A.S.C. No. 112-50]
 
          HOW DOES THE NAVY GET READY, AND WHERE ARE WE TODAY?

                               __________

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON READINESS

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             JULY 12, 2011


                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     



                  U.S. GOVERNMENT PRINTING OFFICE
68-158                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                       SUBCOMMITTEE ON READINESS

                  J. RANDY FORBES, Virginia, Chairman
MIKE ROGERS, Alabama                 MADELEINE Z. BORDALLO, Guam
JOE HECK, Nevada                     SILVESTRE REYES, Texas
AUSTIN SCOTT, Georgia                JOE COURTNEY, Connecticut
FRANK A. LoBIONDO, New Jersey        DAVE LOEBSACK, Iowa
CHRIS GIBSON, New York               GABRIELLE GIFFORDS, Arizona
VICKY HARTZLER, Missouri             LARRY KISSELL, North Carolina
BOBBY SCHILLING, Illinois            BILL OWENS, New York
JON RUNYAN, New Jersey               TIM RYAN, Ohio
TIM GRIFFIN, Arkansas                COLLEEN HANABUSA, Hawaii
STEVEN PALAZZO, Mississippi
MARTHA ROBY, Alabama
                 Jamie Lynch, Professional Staff Member
               Vickie Plunkett, Professional Staff Member
                   Christine Wagner, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2011

                                                                   Page

Hearing:

Tuesday, July 12, 2011, How Does the Navy Get Ready, and Where 
  Are We Today?..................................................     1

Appendix:

Tuesday, July 12, 2011...........................................    35
                              ----------                              

                         TUESDAY, JULY 12, 2011
          HOW DOES THE NAVY GET READY, AND WHERE ARE WE TODAY?
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Bordallo, Hon. Madeleine Z., a Delegate from Guam, Ranking 
  Member, Subcommittee on Readiness..............................     2
Forbes, Hon. J. Randy, a Representative from Virginia, Chairman, 
  Subcommittee on Readiness......................................     1

                               WITNESSES

Burke, VADM William, USN, Deputy Chief of Naval Operations, Fleet 
  Readiness and Logistics (N4)...................................     4
McCoy, VADM Kevin, USN, Commander, Naval Sea Systems Command.....     7

                                APPENDIX

Prepared Statements:

    Bordallo, Hon. Madeleine Z...................................    41
    Burke, VADM William, joint with VADM Kevin McCoy.............    43
    Forbes, Hon. J. Randy........................................    39

Documents Submitted for the Record:

    Department of the Navy, May 11, 2011, Memorandum for the 
      Record, Subject: Fleet Readiness Review Panel Report (One 
      Year Later)................................................    57
    OPNAV 43, February 2011, unclassified Report to Congress on 
      Impact of Training and Crew Size on Surface Force Material 
      Readiness..................................................    65
    Two slides submitted by Admiral Burke........................    80
    Three charts submitted by Mr. Forbes.........................    82

Witness Responses to Questions Asked During the Hearing:

    Ms. Bordallo.................................................    87
    Mr. Forbes...................................................    87
    Dr. Heck.....................................................    88
    Mr. Kissell..................................................    88
    Mr. Palazzo..................................................    89

Questions Submitted by Members Post Hearing:

    Mr. Forbes...................................................    93
    Mr. Kissell..................................................    95
          HOW DOES THE NAVY GET READY, AND WHERE ARE WE TODAY?

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                                 Subcommittee on Readiness,
                            Washington, DC, Tuesday, July 12, 2011.
    The subcommittee met, pursuant to call, at 3:12 p.m., in 
room 2212, Rayburn House Office Building, Hon. J. Randy Forbes 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. J. RANDY FORBES, A REPRESENTATIVE 
       FROM VIRGINIA, CHAIRMAN, SUBCOMMITTEE ON READINESS

    Mr. Forbes. The hearing will come to order.
    I want to welcome all of our members and our distinguished 
panel of experts to today's hearing that will focus on how the 
Navy gets ready and the current state of Navy readiness.
    I want to apologize to both our admirals for being a few 
minutes late. We just had a long series of votes, as you know, 
and our members will be coming in, I am sure, on a sporadic 
basis.
    No one will dispute that we have the most capable Navy in 
the world. However, a dichotomy exists when you contrast the 
decline in our Navy readiness posture due to decreased funding, 
with the increase in military capabilities of many emerging 
powers.
    In January of this year, then-Secretary of Defense Robert 
Gates admitted that Beijing's military modernization caught the 
U.S. intelligence community off-guard. This committee and the 
China Caucus have been trying to alert them to that fact for 
years, but to no avail.
    I juxtapose that against a backdrop of looming defense cuts 
in the United States that are expected to be submitted by the 
Administration in the very near future. Our Navy already has 
insufficient resources to preserve its current fleet, let alone 
reverse the negative trends of years of underfunding, deferred 
maintenance, and gaping holes in Navy readiness.
    According to the Pentagon's quarterly readiness report to 
Congress, in many areas the Navy has not met their goals and is 
not prepared even with the current level of funding. For 
example, currently only 45 percent of our deployed Navy 
aircraft are fully combat ready for the hours that they are 
sailing.
    Everyone can do the math, but I am startled by the fact 
that fewer than 5 aircraft out of every 10 in combat are 
prepared for their mission. We continue to see shortfalls 
throughout the fleet, including an ominous 16 percent backlog 
for aircraft and engines, fewer spares available, and more than 
$850 million of unfunded maintenance requirements, to cite a 
few examples.
    During inspections in the last 2 years, more than one in 
five Navy vessels were deemed less than satisfactory or unfit 
for combat. Coupled with manpower shortfalls, an increased 
number of commanding officers being relieved, greater 
cannibalization of parts from other vessels, and insufficient 
training, all of these statistics add up to glaring 
deficiencies that are nothing short of alarming.
    Earlier this year before this very subcommittee, Vice 
Admiral Bruce Clingan admitted that in his opinion the 
Department of Defense, and certainly the Navy budget, is 
carrying a level of risk this year, fiscal year 2012 and in the 
out-years, that would cause me to suggest that one of the 
solutions to the deficit spending that I would not advise is to 
diminish DOD [Department of Defense] and certainly the Navy's 
budget.
    Admiral Clingan went on further to suggest that to decrease 
the funding at a time when we are trying to reset and 
reconstitute the force and meet an evolving security 
environment, would invite multiple concurrent diverse crises 
and would in fact increase risk.
    Fundamentally, I am very disturbed because over the horizon 
I see our adversaries continuing to expand their military 
might, while a masthead of a $400 billion cut to national 
defense is looming.
    In the last few years, the press reported that after 
meeting with Admiral Mullen, China's top general recommended 
that the U.S. should reduce its military spending, which is 
consistent with what we anticipate from the Administration in 
the very near future.
    And while some in Congress may agree, this is not a 
position that I am prepared to accept. Unfortunately, this is 
exactly the direction we are headed if we do not take strides 
to preserve the budget and our critical investments.
    It is incumbent upon this subcommittee to focus on today, 
and it is our obligation to preserve and defend strategic 
investments for the future. I look forward to hearing from our 
witnesses today not only how the Navy gets ready, but delving 
into detailed discussions regarding the current state of Navy 
readiness.
    Joining us today to discuss these issues are two very 
distinguished individuals: Vice Admiral William Burke, who is 
the Deputy Chief of Naval Operations, Fleet Readiness and 
Logistics; and Vice Admiral Kevin McCoy, Commander, Naval Sea 
Systems Command.
    Gentlemen, as we mentioned earlier, we thank you both for 
being here. We are looking forward to your testimony.
    And now I would like to recognize the ranking member, my 
friend Ms. Bordallo, for any remarks she may have.
    Madeleine.
    [The prepared statement of Mr. Forbes can be found in the 
Appendix on page 39.]

STATEMENT OF HON. MADELEINE Z. BORDALLO, A DELEGATE FROM GUAM, 
           RANKING MEMBER, SUBCOMMITTEE ON READINESS

    Ms. Bordallo. Thank you very much, Mr. Chairman.
    To both our witnesses, Vice Admiral Burke and Vice Admiral 
McCoy, I look forward to your testimony this afternoon.
    Today, we are going to take a more comprehensive look at 
the United States Navy's fleet readiness posture. The readiness 
of our Navy's surface fleet has been a topic addressed in 
detail by this subcommittee over the past 2 years under former 
chairman Solomon Ortiz.
    The Navy has slowly come to realize that it has accepted 
too much risk in the maintenance of our non-nuclear surface 
fleet over the past decade. These significant risks are due in 
part to organizational decisions made by the Navy regarding 
ship manning, ship maintenance capability, and crew training as 
the Navy responded to institutional pressures to reduce 
spending.
    While the subcommittee appreciates the Navy's recognition 
that its past decisions contributed to the current high risk in 
maintenance of the non-nuclear surface fleet, we hope that the 
testimony provided by our witnesses today will address when we 
can expect to see tangible progress and improvement in the 
overall readiness of our Navy fleet.
    This subcommittee takes very seriously the material 
readiness of our surface fleet. As a result, we increased 
funding for the Navy's operation and maintenance account by 
$440 million in our fiscal year 2012 authorization bill.
    Now, this funding will make whole both the ship depot 
maintenance and aviation depot maintenance accounts. I hope 
that our witnesses can outline how this additional funding will 
reduce risks and what specific benefits this funding would have 
on maintenance activities in fiscal year 2012.
    Finally, given the results of the Balisle Report, 
significant challenges remain for improving Navy readiness. I 
have seen the May 11, 2011, memorandum from Fleet Forces 
Commander Admiral Harvey regarding changes to address the 
issues outlined in the Balisle Report. And I hope our witnesses 
today can discuss how these recommended changes will be 
institutionalized in the Navy and over the coming years.
    [The information referred to can be found in the Appendix 
on page 57.]
    Ms. Bordallo. Further, what is the cost of implementing and 
sustaining these recommendations? Will these recommended 
changes be reflected in the budgets for Navy operations and 
maintenance over the Future Years Defense Program? What 
challenges will possible reductions in the Defense and the Navy 
budgets present to implementing these changes?
    We do not have a fleet of 313 ships yet, so it is 
critically important that we maintain our current fleet of 288 
ships for the next near-term. Even though the wars in Iraq and 
Afghanistan are beginning to ramp down, our Navy's role in 
projecting force across the globe will not decrease.
    In fact, in many instances, I see the role of our Navy 
increasing, particularly in the Asia-Pacific region. So 
maintaining our fleet is of utmost importance.
    And again, I thank you, Mr. Chairman, and I look forward to 
our witnesses' testimony today.
    [The prepared statement of Ms. Bordallo can be found in the 
Appendix on page 41.]
    Mr. Forbes. Thank you for those remarks, Madeleine.
    And as we discussed prior to the hearing, I ask unanimous 
consent that we dispense with the 5-minute rule for this 
hearing and depart from regular order so that members may ask 
questions during the course of the discussion. I think this 
will provide a roundtable-type forum and will enhance the 
dialogue on these very important issues.
    Without objection, that is so ordered.
    As I mentioned earlier, we have got two very distinguished 
individuals who have served their country very well, bring to 
this committee a great deal of expertise.
    And gentlemen, we are both very proud of the service you 
have done to your country and grateful that you would take time 
to come here and be with us today.
    Vice Admiral William Burke, as I mentioned, is the Deputy 
Chief of Naval Operations, Fleet Readiness and Logistics, and 
Vice Admiral Kevin McCoy is the Commander of Naval Sea Systems 
Command.
    So with that, we look forward to hearing your initial 
statements. And Admiral Burke, I am assuming we will start with 
you. And please feel free to address the committee.

  STATEMENT OF VADM WILLIAM BURKE, USN, DEPUTY CHIEF OF NAVAL 
         OPERATIONS, FLEET READINESS AND LOGISTICS (N4)

    Admiral Burke. Chairman Forbes, Congresswoman Bordallo, and 
distinguished members of the Readiness Subcommittee, it is my 
honor to participate in today's hearing representing the Navy 
men and women--Active Duty, Reserve and civilian--who work to 
ensure our Navy is ready to deliver the full range of 
capabilities we possess to defend the Nation.
    On their behalf, I also want to express our great 
appreciation for the work of this committee in support of their 
service, and in particular I appreciate what you just said, 
Madam, about the plus-ups in 2012 in the readiness account. 
Certainly, we appreciate those and I am happy to address how 
those will help us.
    I was asked to begin today by discussing briefly how we 
generate ready Navy forces to meet the requirements of the 
combatant commanders for named operations, presence, or major 
combat operations.
    Back in 2003, then-Chief of Naval Operations Admiral Vern 
Clark directed the fleets to develop a new approach to 
preparation and deployment of Navy forces. The idea was to 
figure out how to get more of them out there at any given time.
    So what came out of that was what we called the Fleet 
Response Plan. And what it replaced was the IDTC or the Inter-
Deployment Training Cycle.
    I would like to begin with a simple slide that explains the 
elements of the plan.
    Do you have those slides? You do. Okay, good.
    So as you look at that first slide, you can see that the 
Fleet Response Plan consists of four phases, each designed to 
produce or sustain a certain readiness output.
    [The slide referred to can be found in the Appendix on page 
80.]
    Admiral Burke. On the left, it starts with basic training, 
and that provides unit-level training to a single ship or 
aviation squadron, with training in--focused on being safe and 
basic warfare skills.
    At the completion of this phase, a ship or squadron is 
qualified for certain limited operations, like humanitarian 
assistance or counternarcotic.
    The next phase is the integrated training phase, and that 
provides additional training for Navy forces to be ready for 
major combat operations. It is focused on training at the task 
group level, with units working together to accomplish combat 
objectives.
    It culminates with a task force exercise which trains group 
commanders in command and control.
    At the completion of the integrated phase, the task force 
and its associate elements are what we consider a 30-day surge 
asset, and they are qualified for the full range of maritime 
operations.
    Next comes the sustainment phase. That is where the task 
force will conduct virtual and live training as necessary to 
maintain a high state of readiness, and will normally be 
scheduled for one or more rotational deployments, depending on 
the length of the sustainment phase and the Global Force 
Management requirements.
    And I am happy to discuss the Global Force Management 
requirements later if that is desired.
    Now, after they come back from deployment, ships and 
squadrons and the task force in general will maintain 
themselves at a readiness level to be a 30-day surge asset for 
the length of that sustainment phase.
    Then the maintenance phase is set aside to accomplish 
maintenance. But from a ship perspective that is when many of 
the individual members go off to schools and get individual 
training to allow them to contribute to the unit training later 
on.
    Okay, so the IDTC was focused on building readiness in the 
minimum time required--that is the old system--prior to a 
single scheduled deployment. The new system is designed to 
build readiness over a period of time and sustain readiness for 
a significant period of time.
    So if you will move to the second slide, you can see two 
different schedules on there, the top one being the IDTC. And 
what you see there is--in yellow is a maintenance period, a 
notional maintenance period of several months, and then a kind 
of an open period. And in that area, we didn't have the 
direction we had in the current system.
    [The slide referred to can be found in the Appendix on page 
81.]
    Admiral Burke. So ships would do a bunch of things. They 
might be a bunch of exercises or operations, but they weren't 
focused on getting to a certain level of training.
    Then you would go into this work-up phase, which was 
dedicated to getting the ship ready to deploy, and then the 
single deployment.
    And so you can see there is a couple opportunities in 
there, circled in red, where those are lost opportunities for 
operations.
    In the FRP [Fleet Response Plan], on the other hand, you 
have the same sort of maintenance period, followed by a basic 
phase, where you go through exactly what I just explained. You 
build basic skills in the unit level, then go to the 
intermediate where you--or the integrated where you build 
skills for the task force.
    Finally, to the sustainment period in which you can see 
that is a significant period of time. It is more than a year in 
length. And so there is an opportunity for one deployment, or 
two deployments, or a long deployment.
    So, we think that that FRP scheme is the right way to go 
because it generates the opportunity for greater forward 
presence.
    Now, the readiness challenge that we have today is that the 
continuing demand for forces exceeds that which we have, which 
we can provide. So, we have the combatant commanders in a 
situation where they drive demand, and their demand is 
relatively unconstrained except by the Global Force Management 
process. And we have a limited supply of forces.
    So, the Global Force Management process addresses that, but 
then there is a request for forces that is outside that process 
that we have to deal with, and I would be happy to talk about 
that as well.
    But when you have these additional deployments, you 
sometimes impact the maintenance or you impact the training, 
which will impact the maintenance. So, what we have is one 
event cascading into another and so we don't get either of them 
quite right.
    And on the family side, an average of 50 ships a year since 
2005 have violated one or more of the OSD [Office of the 
Secretary of Defense] or Navy standards such as deployment 
length, dwell time, or time in home port, compared with an 
average of 5 in years prior to that.
    Now, my responsibility is the sustainment of our current 
force, including Navy shore infrastructure. We must deliver the 
expected service life of our current platforms to provide 
future capacity to meet the Navy and Nation's needs. And our 
shore infrastructure must support our warfighting platforms and 
our sailors.
    For fiscal year 2012, we focus first on supporting our 
deployed forces, and then on achieving expected service life of 
all our platforms.
    The President's budget for fiscal year 2012 balances risk 
across the entire Navy program to achieve the strongest current 
and future readiness outcomes.
    Again, I appreciate the opportunity to be here with you and 
look forward to discussing the Navy's sustainment programs with 
you.
    Thank you, sir.
    [The joint prepared statement of Admiral Burke and Admiral 
McCoy can be found in the Appendix on page 43.]
    Mr. Forbes. Thank you, Admiral Burke.
    Admiral McCoy.

   STATEMENT OF VADM KEVIN MCCOY, USN, COMMANDER, NAVAL SEA 
                        SYSTEMS COMMAND

    Admiral McCoy. Chairman Forbes, Ranking Member Bordallo, 
distinguished members, it is a pleasure to be here with you 
this afternoon with Admiral Burke to discuss this topic.
    When I came into my command 3 years ago, the readiness and 
sustainment of our surface forces was my number one priority. I 
had just come from 3 previous years as the Navy's chief 
engineer, and I saw what the increased OPTEMPO [operating 
tempo] was doing to our ships.
    Where today, for example, on any given day 50 percent of 
our surface ships are underway, our ships are reaching midlife 
in terms of our major combatant ships, and so therefore they 
are going to get more maintenance intensive.
    As well as, we build a lot of robustness and redundancy 
into our ships early on, and you can underfund and underdo 
maintenance early on in the ship's life and you may not 
necessarily see it and then it catches up to you, and then 
realization that we simply can't build our way to 313 ships.
    And in fact, the cheapest way to afford our Navy with the 
force structure that we need is to maintain the ships that we 
already have.
    In fact, over 70 percent of the 313-ship Navy out in the 
2020 timeframe we own today. It is out there, it is underway, 
it is deployed, it is sitting pierside.
    So we brought all of our attention on solving this problem. 
And the last piece was a recognition that we have a disparity 
between how we were maintaining and sustaining our surface, 
non-nuclear surface forces, compared to our submarines and our 
aircraft carriers.
    So, we implemented three initial series of actions. The 
first was to make sure that, just like we do for submarines and 
aircraft carriers, we build rigorous, class maintenance plans, 
engineering-based, with the fundamentals.
    They are required to get each one of our ships to their 
full expected service life. And every one of our ships has a 
defined service life when we go ahead and build the ship.
    For example, a DDG 51 Flight IIA ship we are expecting to 
get to 40 years, and LCS [Littoral Combat Ship] is 25 years, a 
cruiser is 35 years. And each one of our ships has a defined--
and we base our future force structure plans and our 
shipbuilding plan on getting those ships to their expected 
service life.
    We have no problem doing that with submarines and aircraft 
carriers. Matter of fact, I am proud to say that today USS 
Enterprise is 49 years and 8 months old, and it is underway on 
deployment. Its first deployment was associated with the Cuban 
missile crisis. And submarines routinely reach their end of 
service life.
    And so how do we build that engineering rigor? And we have 
stood up an organization, it is today in Norfolk. We have 120 
people that build the engineered class maintenance plants and 
keep track of the requirement maintenance on our surface ships 
every day. And we have funding laid in now to go ahead and do 
that.
    The second piece was, we had to build a comprehensive 
assessment and sustainment plan for our surface ships. Quite 
frankly, we stopped looking in an organized manner through the 
late 1990s and the early part of the 2000s. We start looking 
with outside eyes and detail at our ships.
    And so one of the first things we did was we partnered with 
the American Bureau of Shipping and said we want to use what 
they use to keep about 10,000 ships in class around the world 
every year. And we didn't want to reinvent the wheel, and we 
built a very efficient process. And so far we have put about 20 
ships through that process.
    Actually when the ship goes in dry dock, we do about 5,000 
to 6,000 ultrasonic tests on key structure and tanks, and we 
inspect distributed systems. The things you need to make sure a 
ship will last 30 or 40 years, we go do that now.
    And we have a plan through the end of 2017 to just about 
get every one of our surface ships through that process.
    We also built rigorous assessment and sustainment plans 
around the deployment cycle that Admiral Burke just talked 
through. So for example, before a ship comes into major 
availability, we now send people down to do hand-over-hand 
inspections to make sure we thoroughly understand the work 
package and pick up any last minute things. Prior to deployment 
we do grooms and things like that.
    And so the last piece of it, the third leg of the stool, if 
you will, was to rebuild capacity and capability at the 
regional maintenance centers, and that was for twofold. One was 
to oversee contractor cost performance and quality performance, 
and the second was to reestablish the intermediate level 
capability that we had let atrophy.
    And that is so important for ships right next to where they 
tie up, to have repair capability so that we don't build this 
backlog of little things that become bigger things. And so 
sailors can come off the ships and see their equipment tore 
down and have a better capability to repair their stuff 
underway and be more self-sufficient when they get underway.
    And I am happy to say just 2 weeks ago, with Admiral 
Harvey, the Atlantic Fleet Forces Commander, we went down to 
Mayport and we re-stood up the eye-level capability, and 
reopened the shops that we had closed a number of years ago to 
service the 19 surface ships that are in that area.
    So, I would tell you, for 3 years now we have been working 
this. I worked very closely with Admiral Balisle when he was 
working on the Balisle Report. And he did a great job of tying 
these issues together with other things in terms of manning and 
training to build a comprehensive story.
    And then, the last piece is we have been working very 
closely, have received great support from the two surface type 
commanders, the two fleet commanders, the CNO [Chief of Naval 
Operations] staff and the CNO himself to build the resources 
necessary to fund the programs that I just talked about.
    So, I am very happy to answer any questions you may have. 
And thank you for your interest in this subject.
    [The joint prepared statement of Admiral McCoy and Admiral 
Burke can be found in the Appendix on page 43.]
    Mr. Forbes. Thank you, Admiral McCoy.
    And to both you gentlemen, I just want to tell you a little 
bit of the logistics.
    Our members ask their questions a little bit different than 
some of the committees that have a more formal structure, where 
one member will ask something for 5 minutes and then they 
alternate. If they have anything related to that subject 
matter, they may chime in, so we can have kind of a dialogue 
and discussion.
    And I want you guys to have all the time you need to 
respond. So it is not a gotcha thing. You get a chance to look 
at your answers and bring them back.
    We want to begin by reiterating what I said at the 
beginning, and that is how much we appreciate all you have done 
for the service to our country. We recognize that. We thank 
you. Both of you bring an enormous amount of expertise to this 
hearing.
    Admiral Burke, as I understand, in your role, you are 
basically in charge of all of the maintenance operations for 
our carriers, all of our ships, our aircraft, all of our naval 
facilities. All of it is kind of under your auspices.
    Is that pretty much accurate?
    Admiral Burke. My job, sir, is to get the resources for 
those areas, such that Admiral McCoy, his counterparts in the 
aviation, can execute the maintenance and execute the 
readiness.
    Yes, sir.
    Mr. Forbes. And, Admiral McCoy has that with everything 
other than the carriers. But you have the surface ships and the 
subs. Is that correct?
    Admiral McCoy. I am responsible for all of the engineering 
and maintenance on the aircraft carriers, submarines and 
surface ships. I don't have airplanes. My compadre, Vice 
Admiral Architzel, who is Commander of Air--runs the airplanes.
    Mr. Forbes. One of the concerns that this committee has is 
that oftentimes we are trying to make sure we are answering one 
key question, and that is, are we ready?
    We see where--I mentioned in my opening statement, in 
January the Secretary of Defense said that Beijing's military 
modernization caught the U.S. intelligence community off-guard. 
Whether he meant that or not, we can only go by his words.
    But one of the things that is so frustrating to us is for 
years, we sat in hearings just like this and said this is 
happening, and we saw guys sitting where you are sitting 
saying, ``No, no, no, it is all under control and we don't see 
it happening that much.''
    Today, it is important for us, because every time we see 
somebody come over here with a uniform on, we just assume that 
they are coming over to give us their best military expertise 
and the experience that they bring to bear with all the great 
stuff that they have done.
    But I need to ask you how you perceive your role as 
witnesses today, so begin, so our committee understands that.
    And the reason that I have to ask that question is just a 
few weeks ago, the Chairman of the Joint Chiefs of Staff, 
Admiral Mullen, was over here. And we were a little surprised, 
because we asked the chairman, we said, ``We know that your 
role to the President is being a military adviser and bringing 
the collective information that you are getting from all of the 
Joint Chiefs to him. Is that the same role you have when you 
come testify to Congress?''
    And he quickly said no. And we tried to find out what his 
role was. And he couldn't tell us. It was kind of like 
obscenity--you know it when you see it.
    But what we didn't understand was he could come over here 
and tell us on Don't Ask, Don't Tell. Before anybody even asked 
him the question, he wanted to say what his personal opinion 
was.
    But when we asked him about troops in Afghanistan, where he 
had mentioned that some of the policies that were taken posed a 
greater risk than he was willing to accept, a risk to our men 
and women in uniform and our mission, he said he didn't want to 
answer those questions, to give us that expertise.
    So, I guess my first question for you guys today, so the 
committee knows just in how to phrase our questions, today as 
witnesses, are you coming supporting the President's budget? 
Are you coming as support of the Pentagon's position? Or are 
you coming with an independent military assessment?
    And we don't put a right or wrong on that. We just need to 
know which hat we are wearing when we listen to your testimony.
    Admiral Burke, maybe you could start off with that, and 
then, Admiral McCoy.
    Admiral Burke. Yes, sir. I come as a member of the U.S. 
Navy to tell you what the President's budget says. And I will 
give you my personal opinion if I think that is warranted.
    In some cases my personal opinion is probably not 
warranted, because I made my personal opinion known in the 
deliberations, and it was either not accepted or my view wasn't 
broad enough. Because, you know, I have my area of expertise 
and there are other people that have a different area, and 
there is only so much money to go around.
    And so you end up with kind of a mix.
    Mr. Forbes. And Admiral, we would still like to hear your 
opinion, because we put a great deal of respect on that 
opinion.
    And one of the concerns that you know, in our oversight 
role--we know what our role is. Our role is, first of all, to 
represent our constituents, but secondly to do an oversight 
role on the Navy. And for that, we need that kind of expertise 
and those opinions.
    Admiral McCoy, any difference on how you view your role?
    Admiral McCoy. Mr. Chairman, I am here, first as a naval 
officer. I am also an engineer and probably a lifelong 
maintainer of ships.
    I intend to give you a straight story on what we need. I 
will also tell you what I think the impacts if we don't get 
what we need.
    But I also--as Admiral Burke said, I also understand that 
in the higher roll-up of the budget, that the priorities may 
not exactly have come out the way I would have selected it. But 
I think I can give you an honest assessment of what the 
shortfall will translate into.
    Mr. Forbes. And that is what we are asking for--thank you, 
both, for that.
    Oftentimes, I have found that our services speak a language 
that sometimes they don't even, each other, understand, you 
know, and we speak a language that the American people don't 
understand.
    So we try to bring it down to a language that, perhaps, 
unifies us all.
    When we talk about readiness, the average person listening 
to that doesn't really know what we are talking about, because 
we sometimes talk around them.
    But as I look at readiness, it seems to be our ability to 
supply the resources our combatant commanders need to meet 
their current and future missions.
    Is that a fair assessment, Admiral Burke, or how would you 
change that?
    Admiral Burke. I am sorry. I think that is probably a fair 
assessment.
    I do think, though, that the combatant commanders live in a 
different world than we do, in that they are not constrained by 
resources and we are.
    And I don't mean to make that sound like we don't have, but 
I think we only have so many ships today. They can't be in all 
the places they are asked for.
    And I think the services, in particular the Navy in this 
case, has to be stewards of that resource for the future. So 
using it up today puts a future combatant commander at risk if 
we don't husband that resource in the near term.
    Mr. Forbes. And Admiral Burke, and I don't want to belabor 
this but, but these are important issues for us. That is why I 
am taking a few more minutes than I normally would.
    But when we are looking from this committee at making sure 
we are ready, that we have the readiness we need as a nation, 
we have got to not only look at today's missions, but our 
future missions as well.
    But our goal for readiness is to make sure those combatant 
commanders have what they need to be able to fulfill their 
missions.
    Now, we may be restrained by budgets and have to say how do 
we deal with that.
    But isn't that the essence of readiness, to make sure that 
those combatant commanders have what they need to fulfill their 
missions, whatever those missions might be?
    Admiral Burke. Sir, I would agree that in general that is 
true. I am just simply making the point that there is a 
combatant commander today and there is a combatant commander 
tomorrow.
    If the combatant commander today uses it all up, then it 
won't be there for the combatant commander tomorrow.
    So it is--I know it sounds like I am hedging, but I am 
trying to say that there is a future readiness piece to this as 
well.
    Mr. Forbes. And I don't disagree. What I have a hard time 
with is when our combatant commanders are on the field, trying 
to fulfill the missions that we have tasked them to fulfill, we 
want to make sure they have the resources to do those missions.
    That is what this committee should be about, I would think, 
as a Readiness Subcommittee.
    And do you disagree with that?
    Admiral Burke. I don't disagree with it. I am just saying 
there is a caveat to it that I think the committee ought to 
recognize.
    Mr. Forbes. Admiral McCoy.
    Admiral McCoy. I think the piece that I would probably 
elaborate on a little further is, for example, if a combatant 
commander decides he needs the force structure such that we 
don't do maintenance availabilities for 2 or 3 or 4 or 5 years. 
There is a cost to that, such that that ship is no longer a 35- 
or a 40-year ship.
    And that has to be accounted for in the shipbuilding plan 
and in our ship inventory for future years. That is the piece.
    And it may be to the point where we technologically, you 
know, we have to be on a cycle, a maintenance and sustainment 
cycle, that with our inventory of ships that doesn't allow us 
to provide the readiness at very high levels for sustained 
periods of time.
    Mr. Forbes. When are you going to look at our combatant 
commanders and say, ``You shouldn't have the resources you need 
to fulfill your mission?''
    I don't understand that.
    I understand that you may differ with them on what those 
resources may be. But I just don't understand, when we have a 
combatant commander anywhere in the world that we are going to 
look at him and say, ``We are not going to give you the 
resources you need to fulfill your mission.''
    That is different than saying, ``We are going to give you 
everything you want.''
    But shouldn't we be about saying we are going to give them 
all the resources they need to fulfill their mission?
    Or are we saying that we are making budgetary decisions 
here today and we are making them over at the Pentagon that are 
not giving them the resources they need to fulfill their 
mission?
    I guess that is my question. And that is where I am having 
a hard time getting a yes or no answer.
    Admiral Burke.
    Admiral Burke. They should have the resources to do their 
mission. The process in the Pentagon is such that there is a 
Global Force Management process that adjudicates the requests 
from the combatant commanders.
    And so, that is a way of taking the resources and 
allocating them to the level of what we have. So trying to take 
what we have, divvy it up in an appropriate fashion, you get X, 
you get Y, you get Z, et cetera.
    But then there is a piece outside the process, where there 
are requests for forces that we try to address. But they come 
in outside of the process, and so in doing some of that, we end 
up with what Admiral McCoy is talking about with potentially 
using up our fleet.
    It is not so obvious with ships, but it is very obvious 
with aircraft. Aircraft only have a certain amount of life in 
them. They can only fly so many hours. When you use those up 
today, you don't have them tomorrow.
    Mr. Forbes. And, Admiral, I don't disagree with that at 
all. I mean, that is kind of the given. We understand that.
    What I am saying is it looks like to me, this committee and 
the full committee should be asking ourselves this question 
when we are looking at readiness. Do our combatant commanders 
have the resources they need to fulfill the missions we task 
them with?
    If we don't have those resources, we shouldn't be tasking 
them with the missions. But if we task them with the missions, 
don't we have an obligation to make sure they have the 
resources necessary to fulfill those missions?
    That seems to me to be a pretty straightforward question 
for us. And we shouldn't be back over here in the Pentagon or 
over here saying, ``No, we are just going to give you a portion 
of what you need to fulfill your mission, because we don't want 
to spend the money to do it.''
    So my question to you is at what time do we look at any 
combatant commander and say, ``We are giving you a mission, but 
we are not going to give you the resources to fulfill your 
mission?''
    That is different than a wish list. That is when do we look 
and say, ``We are not going to give you the resources you need 
to fulfill your mission?''
    Admiral Burke. I don't think we do. I think if they don't 
have the resources, then we would change the mission or----
    Mr. Forbes. So then, it would be fair to say that from our 
perspective as the committee, we should be looking to determine 
readiness based on whether or not we are able to give the 
resources that our combatant commanders need to fulfill their 
missions, both today and the future missions they have.
    Admiral Burke. Yes, sir.
    Mr. Forbes. Is that fair?
    Admiral McCoy, would you disagree with that?
    Admiral McCoy. No, that is fair. Yes, sir.
    Mr. Forbes. Okay. Now in making that assessment, do we have 
any objective bars, thresholds, or standards we use to make it, 
or is all this just kind of subjective, that we kind of know it 
when we see it?
    Admiral Burke. We have a--it is not ``we will know it when 
we see it.'' We have, as I described in my opening, a process 
by which we generate maintenance--or generate readiness.
    That process has specific requirements that the units 
complete, that the task group or task force completes before it 
is certified by the Second or Third Fleet Commander to go 
forward and do its deployed business.
    Mr. Forbes. In determining our readiness, do we rely on the 
QDR [Quadrennial Defense Review] at all?
    Admiral Burke. No, sir.
    Mr. Forbes. So you don't look at the QDR at all to 
determine--how do you know what the missions are going to be 
for our combatant commanders, both today and in the future? 
What do you use as your touchstone to measure those missions 
against?
    Admiral Burke. Let me make sure--the Quadrennial Defense 
Review?
    Mr. Forbes. Yes.
    Admiral Burke. No, sir. When the COCOM [combatant 
commander] requests forces, he has some idea what he wants 
those forces to be able to do, and that allows us to tailor the 
training package, if necessary.
    But what we endeavor to do is train the deploying force to 
a wide variety of missions, because what we think is going to 
happen isn't always what happens, so we want them to be ready 
for----
    Mr. Forbes. So, what role does the QDR play? In other words 
if we are looking at this laydown of what we believe our risk 
assessment is, what role does that play?
    Does that play no role at all in determining our readiness 
posture?
    Admiral Burke. I think the QDR, sir, is designed to look at 
what the future might be and what the force is necessary to 
deal with the QDR would be. So I believe it is more a force 
planning document than a force readiness document or force 
readiness generating document.
    Mr. Forbes. So, do you not use the QDR to know the forces 
that you are going to need to be able to do your planning with?
    Admiral Burke. I think we are talking past one another, 
sir, and I will try to remedy that.
    The QDR helps us decide what forces we procure. The COCOM 
demand signal helps us determine how we prepare those forces to 
deploy.
    Mr. Forbes. Okay. I am going to hold off now and come back, 
because I have got a series of questions I would like to follow 
up with you on that and some of the reports that we have from 
that.
    But I would like to recognize the ranking member now, Ms. 
Bordallo, for any questions that she has.
    Ms. Bordallo. Thank you very much, Mr. Chairman.
    My first question is for either of the admirals.
    I do know the Navy has been operating at a very high 
operational level for the past 10 years. And in order for the 
Navy to meet the ongoing, intense operational requirements, are 
we increasing our fleet deployment schedule too much?
    Or are we investing sufficient time into preventative 
maintenance, training our sailors, and building an adequate, 
managed structure to maximize our fleet readiness in the 
future?
    I guess I will hear from both of you.
    Admiral Burke. I will take it.
    That is one of my concerns, madam. And it gets back to a 
conversation I was just having with the chairman.
    It is the potential overuse of our platforms. And so, that 
overuse makes them last less time or precludes the opportunity 
to do the necessary maintenance, and what the ground forces 
will call reset, and we call ``reset in stride.''
    That is, they need to get a certain amount of maintenance 
every so often at the engineered required level. And if we 
don't do that, we are not going to achieve service life. That 
is the ships side.
    On the air side, we are going to fly the wings off them. 
They only have about 6,000 or 8,000 hours in those planes, if 
we don't get them--if we use that up in 10 years or 12 years. 
But we plan on them lasting 20, 25 years.
    The other thing that happens with some of the deployments 
we had is those deployments optimize for the combatant 
commanders' requirements.
    That is what we have done, and so now what happens is you 
run into a maintenance issue gets shortchanged or a subsequent 
[inaudible]. So one cascades into another, which cascades into 
another, which cascades into another, and you end up with a 
less ready ship or less ready [inaudible] because of that.
    Ms. Bordallo. Admiral.
    Admiral McCoy. No, it is--I think this is an issue, 
something that we are working closely with surface maintenance, 
particularly now that we are putting the resources and the 
focus on it.
    One area where you have a series of smaller compressed 
availabilities is you can't efficiently do the deep maintenance 
that you need to do.
    Looking at a cycle similar to what we do with aircraft 
carriers, where we have, say, a certain cycle that allows us a 
6-month period in there to do deep maintenance. What is the 
right mix in there for surface ships? This is one issue that we 
are tackling right now inside of Navy.
    Ms. Bordallo. Thank you.
    My next question also is for both of you. I am not familiar 
with the technical nuances of combat operations of the ship, 
but I have heard repeatedly about the tactical data link 
coordination and standard protocol on board our surface 
combatants.
    I think the network is called [inaudible] 16, and I am 
wondering if you plan any improvements to establishing a high 
fidelity, common operational picture to ensure a more stable, 
dependable depiction of the domain operations at any point in 
time.
    And I would like to hear from both of you.
    Admiral Burke. Madam, there are technologies in that area. 
You have it absolutely right.
    We are working on that one. I don't know specifically what 
the progress is that we have made. And I would be happy to get 
back to you on that.
    Ms. Bordallo. All right.
    Admiral.
    Admiral McCoy. It is an area that we are working on, madam. 
It has to do with interoperability between sea and air assets. 
And we would like to take that one for the record and get you 
and up-to-date response.
    [The information referred to can be found in the Appendix 
on page 87.]
    Ms. Bordallo. Thank you very much.
    And I yield back, Mr. Chairman.
    Mr. Forbes. Thank you.
    The gentleman from Mississippi is recognized.
    Mr. Palazzo.
    Mr. Palazzo. Thank you, Mr. Chairman.
    I would like to thank our witnesses for being here today. 
For your service to our country, thank you very much.
    Our U.S. Navy is the world's greatest power projection 
force, and despite being at the lowest ship levels in decades, 
the fleet remains one of our greatest national assets. This is 
an asset that we should be nurturing and ensuring. And we must 
continue to grow this asset to meet all of our current 
requirements and ensure that future capability needs are met.
    In my opinion this means continuing to grow our fleet, 
supporting a robust shipbuilding plan, and ensuring that our 
current ships meet their projected service lives without major 
problems.
    One thing I am curious about is the use of composite 
materials in our Navy as both replacement parts and original 
parts.
    So, Admiral McCoy or Admiral Burke, whoever is the most 
knowledgeable on the subject, while much of the discussion has 
been focused on the Navy's past performance with respect to the 
operation and maintenance of the surface fleet, I would like to 
shift the topic slightly to talk about, you know, composites.
    So, I have a number of material manufacturers in my 
district, composite materials, and I am aware that composite 
materials have been introduced in several Navy ship programs.
    What is the Navy's experience to date with composites?
    Admiral McCoy. Yes, sir. We are trying to use composite 
replacement parts everywhere we can. Great examples are, for 
example, topside electrical boxes, telephone boxes, electrical 
plug-ins all over the ship.
    Great success stories--composite deck gratings. Every place 
we can, we are trying to use composite. So particularly on, for 
example, LCS-1, we see in the waterborne mission zone that use 
of composites really improved corrosion performance.
    Corrosion is one of our biggest cost drivers in the Navy, 
and so we are trying to use composites everywhere we can, sir.
    Mr. Palazzo. I understand that these composites offer some 
valuable advantages as far as strength and weight efficiency. 
And some studies have concluded that composites are able to 
meet Navy service life requirements on several ship classes.
    Do you anticipate the Navy will rely on these types of 
materials even more in the future?
    Admiral McCoy. I do. And in fact, you know, we are building 
a ship right now, the DDG 1000, with an all-composite deck 
house that we will get valuable experience on.
    But at the component level, it is the way to go, 
particularly for replacement of steel enclosures and things, 
and topside structure.
    Mr. Palazzo. Are you satisfied with the amount of composite 
materials going into the future ship plans, or could we do 
more?
    Admiral McCoy. I think we could always do more. And I think 
that is the partnership that we have to continue to have with 
the shipbuilders, who are really, kind of, the deck plate 
experts, and they are giving us ideas and opportunities on how 
to further expand the composite use.
    Mr. Palazzo. All right. Is there anything I can do or our 
colleagues on this committee can do to help the Navy use more 
composite materials?
    Admiral McCoy. No, I will get back to you. If I see the 
opportunity, I will tell you.
    [The information referred to can be found in the Appendix 
on page 89.]
    Admiral McCoy. You know, for example, I just spent a day--
twice a year, there is a big group of Navy and industry folks 
that get together. It is called Mega Rust. And I go at least 
once a year.
    It doesn't sound very exciting, but there is hundreds of 
people. Some people estimate 20 percent of, you know, all DOD 
budget goes to fighting corrosion.
    But I regularly have people coming into my office showing 
me their products, and we try and fast-track it. It is not just 
composites. It is things, different metal treatments for 
corrosion-resistant. This is one of those things that gets an 
open door to my office.
    Mr. Palazzo. Let us know how we can help.
    Admiral McCoy. Yes, sir.
    Mr. Palazzo. Thank you, gentlemen. Appreciate it.
    I yield back.
    Mr. Forbes. Thank you.
    And the chair recognizes now the gentleman from 
Connecticut, Mr. Courtney, for 5 minutes.
    Mr. Courtney. Thank you, Mr. Chairman, thank you for 
holding this hearing. And thank you to both witnesses.
    At the outset, first of all, I just want to state that I 
have had an opportunity to work, over the last 2 years, with 
Admiral McCoy's office, dealing with issues regarding repair 
and maintenance work up at the Groton Shipyard at Electric 
Boat.
    And I just want to say I think we are blessed to have your 
service.
    And again, I just think your balancing act that you perform 
constantly is really impressive. And on behalf of the people in 
southeastern Connecticut, I just want to publicly thank you for 
your great work.
    You know, one of the things that I did, sort of, get a peek 
at during that whole process of, you know, trying to figure out 
availabilities that some of the workers could, you know, fit 
into was when we went through the CR [continuing resolution] 
process last spring.
    You know, when we talk about, you know, readiness and 
making sure that, you know, the maintenance requirements that 
your testimony describes is really going to be part of the 
effort to get to 313 ships.
    I mean, when there is these sort of uncertainties regarding 
funding, that obviously has got to be a factor. And I just 
wonder if you could talk about that for a little bit, in terms 
of, you know, what was going on last spring when the CR was up 
in the air and what that meant in terms of availabilities, and 
how that would affect readiness, if Congress really doesn't 
operate in regular order as far as getting budgets passed?
    Admiral McCoy. Yes, first of all, thank you very much for 
your kind remarks, Congressman.
    As you know, I think it is a waste to have any qualified 
mechanic, particularly a submarine mechanic, not doing his 
trade. And we have been very successful at using the folks at 
EB [Electric Boat] to really help our tremendous needs on the 
Navy side.
    The CR process was incredibly disruptive. I think, luckily, 
we will be able to come out of it with the majority of the 
availabilities that we wanted to accomplish, most of that 
maintenance done. But it is incredibly disruptive.
    For example, Peleliu was supposed to be done in the early 
spring at NASSCO [National Steel and Shipbuilding Company] in 
San Diego, and it is getting done at the end of the year.
    We were not able to let contracts. We had to defer 
maintenance, and we had to change ship schedules around. We 
were not able--for example, we needed help in our public 
shipyards to do some work and we were not able to write the 
contracts to the Electric Boat workers to have them come down 
and help us.
    And so, to the extent we can have a budget on time, boy, 
you really help us out with the maintenance and sustainment 
piece and keeping the fleet schedules on track.
    Mr. Courtney. And--go ahead, Admiral.
    Admiral Burke. Yes, sir, Mr. Courtney.
    It also impacts ship operations as well. So there are some 
deployments that are lesser deployments than others. And so we 
are forced to decide whether to do those or not and try to, you 
know, kind of, bet on the come there will be a budget or not.
    Ship visits, you know, a number of those are canceled to 
various wonderful ports around the east and west coasts that--
you know, not too many as it turns out, but it also creates 
churn.
    You know, what are we going to do with the schedule? What 
is the ship going to do? And so that, the combination of 
maintenance and operations are--they are both impacted by a 
continuing resolution.
    Mr. Courtney. Thank you.
    And Admiral McCoy, I was wondering if you could just, sort 
of, describe for the committee again the process that you use 
with that, sort of, you know, industry working group, in terms 
of looking at, maybe, shortfalls of workers in one yard versus 
another and how that operates.
    Because, frankly, I think that is helpful for us to 
understand how you are trying to balance the maintenance needs.
    Admiral McCoy. Yes, sir.
    We have inside NAVSEA [Naval Sea Systems Command] is about 
60,000 civilians. About half of them turn a wrench every day 
for a living. About a little less than 30,000 turn a wrench for 
a living, and work on our nuclear ships or submarines and our 
aircraft carriers.
    We experience peaks and valleys through the year. And we 
rely heavily on augmentation of our organic workforce at the 
four nuclear shipyards. We rely on Electric Boat and Huntington 
Ingalls down in Newport News.
    The folks that work on nuclear ships are highly skilled. 
They have a significant amount of experience. And it is not 
somebody that you can just hire off the street.
    As a matter of fact, we tell people it takes longer to 
train a nuclear welder in this country than it does a surgeon, 
because of the level of experience that they have.
    And so, we meet every single month with the four naval 
shipyards, Electric Boat, and Huntington Ingalls, and we go 
through not only at the trade, you know, Shop 38 mechanic, an 
outside machinist mechanic, but also the individual trade 
skills below that, an air conditioning and refrigeration 
mechanic, a hydraulics mechanic, all within that Shop 38.
    And we project out for the year how many people we need at 
each place and how many people we have. And we are constantly 
moving workers around.
    On any given day, there are about 200 workers in the six 
nuclear yards, the four public yards, and the two private 
yards. There is about 200 or so workers. Some months, it is 
more.
    For example for the next couple of months, 170 Electric 
Boat workers will be required to augment the public shipyards 
to get the Nation's nuclear work done.
    And so, we treat the workforce of the six nuclear yards as 
a very precious commodity and are constantly balancing the 
pluses and minuses and sending folks here and sending folks 
there. And we have been very successful at doing that, and we 
continue on.
    Mr. Courtney. Thank you.
    I yield back now. I will save a question for later.
    Mr. Forbes. Okay. Thank you, Mr. Courtney.
    Now, the chair recognizes Dr. Heck from Nevada.
    Dr. Heck. Thank you, Mr. Chairman, and thank you, 
gentlemen, for being here today.
    And interested to see the Navy go into the Fleet Response 
Plan, I think you will find it very successful, as the Army has 
found the ARFORGEN [Army Force Generation] model to be very 
successful in a similar pattern. And that will be my only 
gratuitous Army comment for today. Hooah.
    You know, we have talked a lot about hardware ships. But I 
tend to concentrate more on the personnel readiness side, 
considering that we can have the best hardware in the world, 
but if we have got nobody to man it or staff it, it really 
doesn't do us any good.
    In the final report of the Fleet Review Panel of Surface 
Force Readiness from last February, some of the corrective 
actions that were to be taken for manning were to increase 
billets, primarily--I think it was, what, 1,120 personnel 
billets for optimally manned ships in order to perform 
preventive and corrective maintenance, and then an additional 
285 shore billets.
    Where are those billets coming from? Is that within the 
current manning caps? Is that a movement of billets from one 
location to another?
    But where are you going to find those available billets?
    Admiral Burke. Sir, those are within the current caps. So, 
they will come from things that we consider less important.
    Dr. Heck. So the risk analysis has been done to identify 
which billets can be given up without incurring any risk in 
those other areas where you are going to shift over to shore up 
these areas?
    Admiral Burke. I wouldn't say that there is no risk. I 
would say that----
    Dr. Heck. But the risk-benefit analysis says that the risk 
is acceptable to move those billets?
    Admiral Burke. Yes, sir.
    Dr. Heck. The other thing I found interesting was that 
there was only a 61 percent fit classification on board ships. 
Why such a low percentage?
    And the goal was to get it up to 85 percent. What eats away 
that only has you at a 61 percent fit classification?
    Admiral Burke. This is not my area of expertise, but I will 
take it for the record. But let me tell you roughly what I 
think on this one.
    [The information referred to can be found in the Appendix 
on page 88.]
    Admiral Burke. For years, we operated on a fill model. So 
that was essentially, you have a billet, we will put a person 
in it. Fit says that not only will we put a person in it, but 
we will put the right person in it, and that will be both rate, 
Fire Controlman, and NEC [Navy Enlisted Classification], which 
is specific schools or specific capability within that.
    And so in many cases, we now have the right person at the 
right grade, but we don't have the specific school. So that 
person may need to go to another level of fire control school. 
And so that is the challenge we have right now, and so we are 
trying to remedy that.
    Dr. Heck. And I know, if it is anything like the issues 
that we have in the Army, getting enough school slots is always 
a problem.
    Are you finding that a big--and maybe you don't know, but 
you can find out. Is part of the issue having enough available 
school slots to get these individuals in to be trained, or what 
is the issue with them not attaining the level necessary to be 
classified as fit?
    Admiral Burke. I will definitely take that one for the 
record, sir.
    [The information referred to can be found in the Appendix 
on page 88.]
    Dr. Heck. Thank you. And I appreciate it.
    Thank you, Mr. Chairman. I yield back.
    Mr. Forbes. Thank you.
    Chair recognizes the gentleman from North Carolina, Mr. 
Kissell.
    Mr. Kissell. Thank you, Mr. Chairman.
    And thank you, gentlemen, for being with us today.
    Admiral Burke, you said a couple times, ``a limited supply 
of forces.'' What were you referring to in the big picture 
there, and what does that affect?
    Admiral Burke. What I am referring to when I say we have a 
limited supply is we only have 285 ships. And I as a 
submariner, I am most familiar with the submarine model, where 
COCOM demand is for about 16 or 18 sub SSNs at any one time.
    We deliver about 10 SSNs at any one time. And why do we 
only deliver 10? Because that is all we can afford to deliver, 
so----
    Mr. Kissell. When you were talking about limited supply of 
forces, you were talking about specifically ships, and not 
personnel, not aircraft, not missiles, or equipment for the 
ships? You were talking specifically for ships?
    Admiral Burke. I am talking about ships as a representative 
of the entire Navy. So the same sort of thing happens with 
aircraft.
    But the aircraft in the Navy are typically on ships. So 
they are part of that process. So in other words, we frequently 
get asked to deliver more carrier presence with the carrier and 
the aircraft than we can deliver.
    Mr. Kissell. So for every ship that we are short, then you 
are saying there is just a multiplied shortness there of 
everything that you could want or imagine or need with that 
ship, and that is what kind of--I was just curious more about, 
when you say, limited supply of forces, just, you know. So that 
is kind of a--for every ship, then, what comes with that ship, 
we are missing?
    Admiral Burke. Yes, sir.
    Mr. Kissell. Okay.
    And Admiral McCoy, you mentioned a percentage of ships 
being deployed. And I know we had some charts here, and I 
probably--it is on there somewhere and I just missed it.
    But is there an optimum level that we operate against in 
saying this is the percentage that we would like to have 
deployed at any one time, in order to have the rest and 
retrofitting and everything else that we need going on at one 
time?
    Is there a percentage that we shoot for, or is it just kind 
of vary to tempo levels, or----
    Admiral Burke. Let me take that one.
    Mr. Kissell. Okay.
    Admiral Burke. First of all, there are about 12 percent of 
our forces forward deployed. In other words, it is homeported 
in Sasebo, Yokosuka, Japan or in Bahrain. So those forces are 
always forward, if you will.
    That number has essentially doubled over the last 10 years, 
effectively doubled, given the increase in forces forward and 
the decrease in overall forces. So the 40 percent includes 
that.
    What we have done over the last several years is, by 
increasing those that are forward deployed, we have taken those 
that are rotationally deployed--those that deploy from Norfolk 
and Groton and San Diego and Hawaii to go other places.
    We have taken that number and kept it the same, even though 
the force is dropping, the force size is dropping. So where we 
are today is we are not at a sustainable level. Forty percent 
is not sustainable in the long term.
    Mr. Kissell. Is there a percentage that would be, you know, 
all things being equal, more sustainable?
    Admiral Burke. Well, in the submarine force that number is 
about 22 percent.
    Mr. Kissell. Okay.
    Admiral Burke. So 22 percent are forward at any one time.
    Mr. Kissell. And one other question, Admiral Burke.
    You talked about that with aircraft, that there is a 
certain number of hours you get to fly them. And with the 
delayed delivering of the F-35 and the more hours that we are 
flying on the wings we have now, where are we heading to?
    Are we heading towards to the point we don't have the 
aircraft that we need? And how soon might we be there or the 
consequences--what do you foresee there?
    Admiral Burke. The delay in the arrival of the F-35 is a 
challenge for us. It will add hours on those other aircraft 
that we call legacy aircraft. It will add hours to them. And 
those hours are costly, particularly at the end of the 
aircraft's life.
    Mr. Kissell. And how many more hours do you think we have 
there? When are we going to reach the point where those lines 
start coming too close to each other?
    Admiral Burke. Well, we are addressing that now. We have a 
surface life assessment program and a surface life extension--
excuse me, a service life extension program for our F-18s.
    And we are in the middle of actually assessing and 
extending some of those aircraft. So they are built as a 6,000-
hour aircraft. And we are doing the engineering analysis.
    And we think we can get them to 8,000. And then there is 
additional analysis that is going on, to try to get longer life 
out of them. But there is only so far you can go.
    The other thing we are trying to do in that regard is to 
add simulation time. So, if we can--a simulator hour is one, 
cheap--if we can make if effective, we can reduce the hours on 
the actual airplane.
    Mr. Kissell. Mr. Chairman, I would like to ask the admiral 
to get some more information on that and to kind of project 
where these lines may be going. Because if we don't get the F-
35 in and we can't get the hours there, you know, how soon is 
that crisis point coming?
    Admiral Burke. I would be happy to do that.
    [The information referred to can be found in the Appendix 
on page 88.]
    Mr. Kissell. Thank you, Mr. Chairman.
    Mr. Forbes. Thank you, Larry.
    Admiral, I want to come back to the questions we were 
asking, because--and I want to just be honest with you.
    I do not understand--and these aren't just to you two 
individuals as much as they are to the Pentagon and to the 
questions--when we are grappling with trying to make sure we 
have the right readiness posture, it would seem to me that it 
would be without question that we would determine readiness to 
be our ability to supply the resources our combatant commanders 
need to meet their current and future missions.
    It baffles me that we can't even answer that question first 
and agree on that question.
    Now, we might say we just don't have the budget to be able 
to do it. We don't have the dollars, and we need more dollars 
to do it.
    We might even say that our combatant commanders ask for too 
much. Maybe they don't need all that they are asking for.
    But to suggest that readiness is not our ability to supply 
the resources our combatant commanders need to meet their 
current and future missions baffles me, you know. So, I just 
want to say at the outset, I don't understand that.
    The second thing is I don't know why we have the QDR if the 
QDR isn't going to help us make some assessments on our 
readiness. We have been asking for, for the longest time, in 
the full committee, to get a true threat assessment of what we 
have got out there and the risks that we may have for future 
missions, as well as current, so we know if we are ready, 
because we can't turn these things on a dime in 2 years or 3 
years. Sometimes it is a longer period of time.
    We are constantly told, when the Navy wants something or 
the Pentagon wants something, well, look at the QDR. So, I 
would think we would need to look at the QDR for our readiness.
    But I want to cite you this, which is disturbing to me. 
This comes from the independent panel, bipartisan. Everybody 
agrees that they had a consensus that said this: ``The natural 
tendency of bureaucracy is to plan short-term, operate from the 
top-down, think within existing parameters and affirm the 
correctness of existing plans and programs of record.''
    That is exactly what happened to the QDR process. ``Instead 
of unconstrained, long-term analysis by planners who were 
encouraged to challenge preexisting thinking, the QDRs became 
explanations and justifications, often with marginal changes of 
established decisions and plans.''
    I think that is what happens sometimes when we are talking 
about readiness.
    Admiral Burke, yesterday, you and Admiral McCoy were kind 
enough to come meet with me prior to this meeting. Putting it 
in a simple language, I asked you on readiness were we good to 
go. And you said yes.
    I want to put up a chart, if you don't mind now on our 
INSURV [Board of Inspection and Survey] inspections, which I 
asked you about yesterday, and ask you guys to respond to this.
    Assuming that we are not going to just rely on our 
combatant commanders to tell us what they need, I would think 
we would have some kind of objective criteria.
    If you look at this chart--and I think the members have it 
in their materials, that they can look at if they can't see up 
there--if you go back to 2007, 2008, 2009, 2010, 2011, on our 
INSURV inspections, of the ones that came back either 
unsatisfactory or unfit for combat, it was 8 percent in 2007, 
12 percent in 2008, 18 percent in 2009, 24 percent in 2010 and 
22 percent so far this year.
    [The chart referred to can be found in the Appendix on page 
82.]
    Mr. Forbes. Is there any objective goal that we look for, 
for those failures? Any percentage, Admiral McCoy, that you 
would say--that you would be looking for us to say we are good 
to go when it comes to our INSURV inspections?
    Admiral McCoy. Yes. Let me first say, referring back to our 
conversation yesterday, I told you I thought we had a good 
plan, that we had built, over the last 3 years, that we were 
started off on it and that the key is to sustain the funding 
and to sustain that effort. And I believe that.
    We are not good to go today. And I will you that, in the 
near term, I suspect that some of these indicators will 
actually, in the near term, turn a little bit harsher.
    And the reason I say that is, for a long time, we were not 
doing the deep, deep looks. And we are doing the deep, deep 
looks right now. And so that, you know, we are going to see a 
backlog of CASREPS [casualty reports] actually go up.
    We are going to see a backlog of 2-kilos [repair work 
requests] that need to be completed go up, because we are doing 
hand-over-hand inspections. We are doing the grooms with the 
ships in the middle of the period, getting ready for 
deployment.
    And so, I would tell you, one of the things we are trying 
to answer right now with the two fleet commanders is so what 
are the key metrics that show we are making progress?
    And what do we think that our trajectory is going to be?
    That is something that we are working on right now, 
Congressman Forbes. I think we have the right elements in 
place. We have laid in the right engineering rigor. We have 
laid in the right inspections. We have laid in the right 
staffing at our maintenance facilities.
    The type commanders have laid in the additional people that 
they need shipboard to keep up with the maintenance period. The 
top-down involvement, from the fleet, in terms of the standards 
and hands-on work with the ships, not only to get ready for 
INSURVs, but to get ready for deployment.
    All of that is in the right direction. And, right now, we 
are trying to figure out exactly what those key measures of 
success are going to be, and how long it is going to take us to 
get there. But I will tell you it is going to take us another 
couple of years.
    And we are going to see some of this kind of data for the 
next year or two, I think, as we get the deep looks, get the 
inspections done. I will give you a great example, and I think 
it is kind of the poster child for why we need to continue 
doing what we have laid in place.
    I was on a ship a couple of weeks ago, USS Chosin, a 
cruiser out in Hawaii. And the availability started out at 
about $35 million. It was supposed to finish in July.
    The availability is now about $70 million, mostly because 
of deep structure, tanks, hull that once we put the ship in dry 
dock that needed to be addressed and it is going to extend the 
availability about 3 months and add about $35 million--almost 
100 percent growth to the ship.
    That is the kind of thing that we are going to see for the 
near term as we do these inspections, but it will ensure that 
our ships get to their full service life. I am convinced, 
because we have put in place for surface ships the same model 
that we use for submarines and aircraft carriers that we know 
works.
    And now, I think we have to stay the course. We are not 
where we want to be. We are on the right path. We are moving in 
the right direction, but we have to stay the course, sir.
    Mr. Forbes. And Admiral, I want to repeat what I said 
earlier. I have the utmost respect for both of you guys. I am 
not pointing fingers at either one of you. I also have the 
utmost respect for your opinions.
    Here is what concerns us as a committee. We have to look at 
objective criteria. And when I look at this kind of chart, it 
worries me that I see this trajectory that I have got up here, 
and I think you would agree when we look at 24 percent and 22 
percent, that is concerning.
    The second thing that worries me is exactly what you said 
with the Chosin. We look at a situation where we see folks from 
the Pentagon sitting on the other side of those tables telling 
us, ``We have got a plan. We are turning it around.''
    We watched as time after time they come over here when they 
have a statutory requirement to audit their financial 
statements and they said the exact thing. ``We have a plan.''
    In fact, the Secretary said that in 2007, had it up on his 
Web site that he was going to have them all audited by 2010--
got a plan, taking care of it, it is a high priority. He missed 
it by 100 percent.
    They didn't audit any of them in 2010 and they said they 
would do 100 percent.
    Chosin, you are right. We had people telling us it was 
going to be $35 million, you know. It is coming out $70 
million.
    In Guam, when they came in and sat right where you are and 
told us it is going to cost $10 billion, the last report we got 
it is going to be $18 billion, you know, not $10 billion. And 
so, we are sitting here saying how do we have confidence in the 
fidelity of these models if we don't see objective criteria 
turning them.
    Now, I would like to put up another--actually, I think it 
is on the bottom of that. Look at the maintenance that we have 
a shortfall on.
    [The chart referred to can be found in the Appendix on page 
82.]
    Mr. Forbes. Admiral Burke, this is one I would like to ask 
you on. I raised it last night, and for the members, it is at 
the bottom of the chart, I think, that you just had.
    We had this year in the President's budget a $367 million 
shortfall in our ship maintenance.
    Admiral Burke, I am coming back to what you told me at the 
beginning of today's hearing that if we don't do the 
maintenance, we are going to have shorter life cycles, and we 
are going to have greater costs down the road.
    Ultimately, this is something that came over. Your office 
had to look at it. How do we justify having a $367 million 
shortfall for ship maintenance if I am looking at INSURVs that 
are continually growing in terms of failures, and I am looking 
at your statement that we are going to have shorter life cycles 
and greater costs?
    Admiral Burke. I am not happy about the $367 million. 
However, it was a decision that was made based on a bunch of 
other priorities. And ship maintenance came out short a few 
hundred million dollars.
    The impact of that is significant. The impact is that we 
will go without approximately 40 availabilities.
    Mr. Forbes. And Admiral, my concern about, first of all, 
again, you know, I am not pointing at you. Because I know you 
needed that money and had it in there.
    I am just saying when the Pentagon comes over and tells us 
everything is good to go, it is okay, we are $367 million 
short, that is a problem for us, especially when I am looking 
every day at China growing in the terms of ships they have got. 
And I know that that is having an impact on us.
    Can I put up another chart on our Navy aircraft? Now, these 
are deployed aircraft.
    [The chart referred to can be found in the Appendix on page 
83.]
    Mr. Forbes. If you would look at that, it is less than 5 
out of 10 of our aircraft are fully mission capable. Our goal 
is 60 percent and we are not reaching 45 percent. And yet I see 
shortfalls of $72.7 million for our aircraft depot maintenance 
and our aviation logistics of $27 million.
    How do we justify those proposed shortfalls in the budget 
that came over here if we are only at less than 5 out of 10 of 
our aircraft--these are deployed aircraft. These aren't ones 
that are sitting back somewhere. They are deployed.
    How do we justify those kinds of shortfalls?
    Admiral Burke. There is not a good justification for those 
shortfalls. I will say that they are within the realm of what 
we have been doing for years, but it is a problem. We are short 
on spares and that is part of the issue here is having the 
parts that are available to fix these aircraft.
    Mr. Forbes. So, it would be fair to say that we are not 
good to go on those?
    Admiral Burke. We are meeting the COCOM demand, sir.
    Mr. Forbes. Be careful. You are telling me, are we meeting 
the demands of our combatant commanders?
    Admiral Burke. We are meeting the missions of the combatant 
commanders. We are not missing missions today, sir.
    Mr. Forbes. All right.
    Admiral Burke. But I will say that----
    Mr. Forbes. Admiral, I want to ask you this. Have you read 
this quarterly readiness report from our combatant commanders?
    Admiral Burke. I would have to look at it to tell you if I 
have read it.
    Mr. Forbes. It is--and let me just say this. I can't talk 
about all this. This is the unclassified version. We have got 
the classified version.
    I want you just to look at that classified version. I am 
tempted to go into a classified setting, but I encourage our 
members to look at it and then come back and let me ask you 
that question about whether or not you want to say that our 
combatant commanders feel they are ready to meet those 
missions.
    But let us look at these objective facts, which is not 
classified. I think you would agree with me we are not reaching 
the goals we have set for ourselves, which are low goals. They 
are only 60 percent. But we are just at 45 percent. So that is 
a concern, isn't it?
    Admiral Burke. It is definitely a concern.
    Mr. Forbes. Okay. Now, the next thing I would like to put 
up is on our Naval facilities. I think we have a chart.
    We don't have a chart on that, but let me just say this. I 
come back to what you said, which I agree with you, if we don't 
do our maintenance we have shorter life cycles and greater 
costs.
    This year, the budget that came over from the Pentagon 
required that we only do 20 percent of the required maintenance 
on all of our facilities. All the facilities--I am sorry, 80 
percent, that we didn't do 20 percent of it. We only did 80 
percent.
    We had a shortfall of $349 million. How do we justify that 
kind of shortfall and not doing the maintenance on those 
facilities?
    Admiral Burke. The model that we used for that is a 
resourcing model that doesn't necessarily relate directly to 
the way in which we do the maintenance. But I will agree with 
you that in the long term if we don't pay for the maintenance 
today, we will pay more for the maintenance in the future.
    Mr. Forbes. Well, let us come back. You don't disagree that 
we have a $349 million shortfall on the facility maintenance, 
do you?
    Admiral Burke. Well, I think in the past, I think there 
is--you won't find that anybody is funded to 100 percent 
because there is some concern about the miles. So, I would 
say----
    Mr. Forbes. That is not my question, though, as you know. 
My question is, we had--I am taking your numbers. These aren't 
our numbers. I am taking your numbers of $349 million 
shortfall.
    Tell me what the numbers are. If this is a hearing on 
readiness and we need to know whether our facilities are being 
maintained or we are going to have shorter lives and greater 
costs down the road, what is the number if it is not $349 
million?
    Is it $300 million? Is it $280 million? What is the figure?
    Admiral Burke. If you were to fund fully to the readiness 
model, it would be--I am sure the number you are using is 
right. It is roughly $350 million and it is about $175 million 
delta between 80 and 90 percent.
    Yes, sir.
    Yes, that is all I have to say.
    Mr. Forbes. And the reason I ask this is not to push on 
you, but these are the numbers we put in our bill because we 
want to be good to go. We don't want to be coming in telling 
our combatant commanders they don't have the resources to meet 
those missions.
    Now, just a couple of other questions--last week, we had a 
bill, DOD authorization--I mean, not DOD authorization, but a 
DOD appropriations bill cut $8.9 billion out of the defense 
budget that the President submitted.
    What impact is that going to have on readiness?
    Admiral Burke. Sir, I am sure it will have some impact, but 
I don't know what the--I have not seen that, so----
    Mr. Forbes. When you get a chance, would you look at that 
and give us those figures? I am concerned when we start cutting 
almost $9 billion.
    Because I am assuming you guys had already cut to the bone 
before you got here, and then to cut $9 billion, just concerns 
me. And I would just like to hear it from you as to the impact 
it is going to have on you.
    If it is not going to have an impact, my question would be 
why didn't we cut the $9 billion out before the budget came to 
us? If it is going to have an impact, we need to know what that 
impact is and we would love to hear you guys just submit that 
to us for the record.
    [The information referred to can be found in the Appendix 
on page 87.]
    Mr. Forbes. The other thing I think you need to be looking 
at, and we would love to have some insight on, we are just 
talking about the $9 billion because we have got shortfalls 
right now that we have just pointed out. And I am looking over 
the horizon at all these reports of $400 billion to $1 trillion 
of cuts coming down.
    I am really worried about what that does to our readiness 
posture. And I know you guys have to be concerned about that a 
little bit.
    The last two questions I have for you are these. I have 
heard rumors. We had one report in a media outlet that said the 
Navy was thinking about deferring for 2 years, the aircraft 
carrier that we currently have underway in construction.
    Is there any truth to those rumors that you can share with 
us today?
    Admiral McCoy. I would have to take that one for the record 
and let ASN-RDA [Assistant Secretary of the Navy for Research, 
Development & Acquisition] response formally on that, sir.
    Mr. Forbes. Okay.
    Would you mind getting us a response on that?
    [The information referred to was not available at the time 
of printing.]
    Mr. Forbes. And also, we heard that they were talking about 
taking the future carrier off the shipbuilding plan altogether, 
and Admiral, if you could just get us a response on that to the 
extent that you can do it.
    [The information referred to can be found in the Appendix 
on page 87.]
    Mr. Forbes. Final thing I want to just close my part with, 
and then I think Mr. Courtney had an additional--oh, I am 
sorry, Madeleine has a question.
    As I mentioned earlier, also we had a Chinese general 
recommending that--to the Administration, that we cut military 
spending in the United States. Since you guys told me that we 
can have your expertise and your experience, I am going to ask 
you--do you feel we should be cutting military spending in the 
United States?
    Admiral Burke. I would prefer not to cut military spending 
in the United States. I would even more prefer not to cut 
spending on the Navy in the United States.
    Mr. Forbes. And will it impact readiness if we do that, 
Admiral?
    Admiral Burke. So, sir, the answer to this question and the 
answer to a previous question about cutting $9 billion or $8.9 
billion, whatever the number was, out of the budget is I don't 
know whether it will impact readiness per se. It will certainly 
impact capability and capacity.
    I look at readiness as what it takes to get the right 
platforms out the door with the right training and the right 
equipment. I suspect we will continue to do the best we can 
there. The question is, if you cut too much you may not have as 
many platforms.
    Mr. Forbes. And, Admiral, I just want to finish my part up 
with saying, I thank you for all the balancing act you did, 
just like Mr. Courtney has said. But our job is not to do just 
the balancing act.
    Our job is to say, if those combatant commanders have a 
mission that we have tasked them to do, we want to make sure 
they have the resources so that they will not fail in that 
mission. And that is what our committee is just trying to do, 
and we are trying make sure they have those resources.
    Ms. Bordallo, I recognize you for whatever time you may 
need.
    Ms. Bordallo. Thank you. Thank you very much, Mr. Chairman.
    There are a few miscellaneous questions for the admirals.
    Admiral Burke, it is my understanding that the DOD rates 
for fuel increased on June 1st from $126 a barrel to $165 a 
barrel. Can you please explain the total cost and the impact to 
the ship operations and flying hour program accounts?
    And if the fuel rates remain high in fiscal year 2012, how 
will you pay for that deficit?
    Admiral Burke. Madam, you are absolutely right. It is 
roughly $39 a barrel. In the last 4 months of 2011, if that 
price holds, it will cost us an additional $140 million in the 
ship operating account, an additional $204 million in the 
flying hour account, for a total of $344 million through the 
rest of the fiscal year.
    The likely source of payment for that will be supplemental 
funding.
    Ms. Bordallo. Supplemental, okay.
    The next one I have is--the Fleet Review Panel had much to 
say about the inadequacy of the Aegis ship SPY radar readiness. 
Since this radar is the backbone of the Navy's air and missile 
defense capability, what steps has the Navy taken to address 
this deficiency?
    Admiral McCoy. Yes, madam. About 2 years ago, we undertook 
a comprehensive look at the SPY radar. That look was finished 
about a year ago this summer.
    Following on that, we took an even more comprehensive look, 
not only at the radar, but the entire Aegis weapon system, to 
include what we call wholeness--manning, training, shore 
infrastructure, spare parts, fit and fill, the adequacy of the 
coding, the coding standards, interoperability, all of those.
    We implemented in the near term, starting in fiscal year 
2011, the results of the SPY task force, to include plused-up 
manning, increased spares, rooms on ships, plus some coding 
software fixes.
    In addition, we have just come through with the two fleet 
commanders and the resource sponsors and the Chief of Naval 
Operations, a comprehensive plan for total Aegis wholeness, to 
include those key elements. We are using some end-of-year 
funding this year to start that, and we will plan on continuing 
that through fiscal year 2012 and through the FYDP [Future 
Years Defense Program].
    So we have looked at it from a holistic standpoint. We were 
not happy with where we were. And we have got a comprehensive 
plan in place to address those issues.
    Ms. Bordallo. And the funding has been requested?
    Admiral McCoy. The funding has been requested, yes, madam.
    Ms. Bordallo. Another question is, given the issues with 
the current computer-based training raised by GAO [Government 
Accountability Office], the Naval Inspector General and the 
Balisle Report, how has the Navy improved off-ship training for 
Navy personnel to ensure that sailors arrive at the ship with 
the necessary skills?
    Admiral Burke. Madam, we probably went a little too far on 
computer-based training a few years ago. We have since shifted 
the pendulum back some, so we have a mix of computer-based 
training as well as instructor-based training. And we have a 
very good instructor-to-student ratio in that instructor-based 
training.
    And we see benefits in both kinds of training, because 
there are some people that learn better one way than the other 
and there are some things that are better taught one way than 
the other.
    But the key point is it is much better to take apart a 
valve and put it back together in something, you know, where 
you actually put your hands on a physical valve or physical 
work on something.
    So like I said, we shifted too far. We have come back. And 
we think we have got the mix about right now. But we have heard 
from the sailors and heard from the Congress on this one, and 
we have moved.
    Ms. Bordallo. Good.
    My last question, Mr. Chairman, is based on the findings of 
the Balisle Report, the Navy plans to take a number of actions 
in many interrelated areas such as training, maintenance, 
command and control, manning, et cetera.
    What is not clear, however, is who will be responsible for 
making sure that the actions are coordinated and implemented to 
avoid the problems of the past where the Navy wasn't looking at 
things holistically to see whether the changes it was making 
were compatible and did not have unintended consequences.
    The Navy will need to take accountability clear and have 
some kind of integration mechanism across the areas, whether it 
be one senior-level official who is the focal point supported 
by an interdisciplinary group or another approach.
    So, how does the Navy intend to proceed from here in taking 
corrective actions, including establishing leadership and 
organizational accountability?
    Admiral Burke. Last summer, last July, I think it was, in 
front of this committee, Admiral McCoy and I were here--in 
between us was Admiral Harvey.
    And Admiral Harvey was and is the Commander at Fleet Forces 
down in Norfolk. Admiral Harvey said he was the responsible 
person to do exactly what you talked about.
    Now, he can't do that without Admiral McCoy and Admiral 
Architzel and me doing our jobs to support him. So in military 
parlance, we see him as the supported commander and we are the 
supporting commanders. And as long as we do our jobs to give 
him the resources to do it, he will deliver.
    Ms. Bordallo. So, he is the focal point.
    Admiral Burke. Yes, madam.
    Admiral McCoy. And if I could chime in, I am on a regular 
every 60- to 90-day drumbeat with Admiral Harvey. I also report 
to Admiral Walsh, the Pacific Fleet Commander.
    I am responsible to deliver the engineering and maintenance 
associated with the actions in the Balisle Report.
    I can also tell you that the two surface type commanders 
are also held accountable by the fleet, Admiral Harvey and 
Admiral Walsh, for their pieces of manning, training and 
standards and things like that that were in the Balisle Report.
    So, we are on a regular drumbeat. And so, I think that is 
often moving and being well cared for.
    Ms. Bordallo. Thank you very much. And I thank you both for 
service to our country.
    I yield back.
    Mr. Forbes. Thank you, Madeleine.
    Mr. Courtney is recognized for a question.
    Mr. Courtney. Thank you. Actually, I wanted to ask two 
questions, if that is okay.
    One is, you know, we talk about spending in the top line of 
the defense budget, which, again, I share a lot of Mr. Forbes' 
concern. Obviously, that doesn't mean there is a blanket 
approval for any kind of spending. I mean, the fact of the 
matter is, any system can always be more efficient.
    And, you know, the SSBN reconfiguration that brought the 
price tag down by almost $2 billion a copy that was worked 
through over the last year or so, you know, is an example of 
where, you know, I think that is a healthy thing, to make sure 
that we are really spending the money as efficiently and 
smartly as possible.
    Another question that came up over the last year was the 
JSF [Joint Strike Fighter] alternate engine, you know, never-
ending, perpetual debate in this building.
    But one of the arguments that Secretary Gates and Admiral 
Roughead talked about was the impact, not just on production 
costs, which was about $3 billion in additional spending for 
the alternate engine, but also the repair and maintenance 
impact of having two separate engine systems, particularly in 
places like aircraft carriers, where, I mean, you are really 
creating--Admiral Roughead argued pretty passionately was a 
pretty inefficient arrangement that was going to cost money.
    So, I guess, you know, again, I share many of Mr. Forbes' 
concerns, but on the other hand I think that, you know, I 
think--let me ask you. Do you agree that it still behooves us 
to look at spending issues, you know, thinking through, again, 
the way these sort of play out over the life cycle in terms of 
impact of cost down the road, because we don't want to waste 
money under almost any scenario over the next few years or so.
    Admiral Burke. Yes, sir. I fully agree with you.
    And I spend much of my time and my team spends much of its 
time scrubbing those things that come to us from Admiral McCoy, 
Admiral Architzel and others as requirements. So, we dig into 
them to try to figure out if there is a different way to skin 
the cat.
    Once it goes past me, the same thing happens with some of 
our budgeteers who have much experience in particular accounts 
and look for ways to either save money that might be spent in a 
duplicative fashion or to look at efficiencies like you are 
talking about, Congressman.
    Mr. Courtney. Because I think, you know, we want, you know, 
testimony that is very upfront about whether we are 
unnecessarily cutting spending, but we also, I think, would 
encourage input about ways that we could do things better and 
maybe save money as well.
    Admiral McCoy. Can I chime in there for a second?
    Mr. Forbes. Yes.
    Admiral McCoy. We see it as our obligation, particularly 
given all that we deal with maintaining this and procuring this 
fleet, to cut what we call total ownership costs. And it is 
everything to do from using composites on ships to single-coat 
paints instead of three-coat paints.
    Sounds like a small, small thing, but it is huge when you 
multiply it over 288 ships.
    For example, we recently saved $600 million by one study of 
whether we could take a class of ships from 4-year maintenance 
intervals to 6-year maintenance intervals. And that was $600 
million over the FYDP.
    And on any given day across NAVSEA, we have 200 to 300 of 
those efforts ongoing. Some of them don't pan out. Some of them 
are almost a no-brainer, because the return on investment is so 
big. And we are constantly feeding those out.
    Matter of fact for the first time starting in the fiscal 
year 2012 budget, we actually across the Navy went and invested 
heavily to put seed money to a number of initiatives that will 
actually reduce spending in the long run.
    Mr. Courtney. Good, last point, Admiral McCoy.
    You testified earlier again that you have this monthly 
meeting process. I hope that will continue. Again, a few 
notices go out this week, and as you know, my office will be 
calling in just to check in with you.
    And again, I want to thank you for your great efforts to 
try and make sure that talented people get used and not wasted. 
And I hope that will continue.
    Admiral McCoy. Yes, sir. And we are heavily relying on the 
excess labor, if you will, at Electric Boat for the next 6 to 
12 months to help us with the public shipyards.
    Mr. Forbes. And let me finish up by saying that what Mr. 
Courtney said is really apples and oranges. There is no one who 
says that we shouldn't look at the most efficient means 
possible.
    Here is what I will stand on, and I think it is very 
difficult to argue with this. We hear the Secretary come in and 
talk about efficiencies. It is not an efficiency when you cut 
your maintenance down to doing only 80 percent of the 
maintenance that you need. That is just kicking the can down 
the road. And as you have admitted, it is going to be greater 
cost and shorter life expectancies when we do it.
    This committee needs to be on top of that. That is not good 
to go.
    It is not cutting costs when we say that we are going to 
cut the cost on aircraft maintenance, and we see that we have 
the problems that we have with only 45 percent of our naval 
aircraft in a mission-capable ready to fly. That is not a cost 
efficiency.
    It is not a cost efficiency when we look at our 
cannibalization rates, which have been above the maximum 
accepted level for the fourth consecutive quarter. That means 
we are taking parts off of one ship to put on another ship so 
we can meet the inspections.
    The other thing that I am really concerned about, and I 
don't think it is a cost efficiency--I want to put this last 
chart up so we can get it in the record and let you comment on 
this--but our casualty reports, which indicate--if it is a C-3 
or C-4, indicates a primary mission degradation with mission-
essential systems or equipment have failed.
    [The chart referred to can be found in the Appendix on page 
84.]
    Mr. Forbes. We have had on the average 40 percent of the 
time that our ships have been deployed, they have had at least 
one major equipment or systems failure. That is not a cost-
cutting measure.
    And I know yesterday when we were talking, you said, 
``Well, that is not necessarily a failure for that particular 
mission that they are doing.'' But that would be like saying, 
``I am going down the road, and the windshield wipers on my car 
aren't working, but it is not raining right now.''
    The reason we put that equipment on is so they are ready 
for those missions when they come up.
    And that is the kind of thing, Mr. Courtney, I think this 
committee needs to be on top of, because when we come in here 
and say we are good to go for readiness, we are not good to go 
for readiness. We have got some big shortfalls that we need to 
fill, if we are going to make sure that our combatant 
commanders have the resources they need to meet the missions 
that they need.
    And the final question I want to do is just one follow-up. 
Ms. Bordallo raised a very good question on the fuel, and you 
talked about the supplemental. But what are you going to do to 
address the fiscal year 2012 costs that you are going to be 
having?
    How are we going to pay for those shortfalls due to the 
increased prices that you know you have already got?
    I am sorry, Larry--okay.
    The supplemental won't come for that, but.
    Admiral Burke. Is that a question?
    Mr. Forbes. Yes, sir, please.
    Admiral Burke. I don't know yet how we will pay for it. I 
suspect we will--because much of that fuel use will be in the 
CENTCOM [Central Command] area supporting operations in 
Afghanistan and in the Gulf, that we will pay for that with OCO 
[Overseas Contingency Operations] funding.
    Mr. Forbes. Mr. Kissell, one final question, and then we 
are done.
    Mr. Kissell. Thank you, Mr. Chairman.
    Just a couple of follow-ups and the information we talked 
about on our aircraft and kind of like the convergence, you 
know, where does the eventual demise of the legacy aircraft and 
the lack of the F-35, you know, where are we going with that?
    But especially in terms of safety for our airmen and, you 
know, how far are we going to be pushing that envelope in terms 
of safety. I would like to have, you know, consideration for 
that.
    And the last thought is when you look at these readiness 
numbers and recognizing that we are operating in what I would 
call a harsh environment, but we are not operating in a hostile 
environment, you know. And I hope we don't.
    I hope we don't have active warfare involving our ships, 
other than what we are doing in terms of launching attacks.
    But it does concern me. If we did get into a hostile 
situation, and we have these maintenance situations, you know, 
without being fired upon, then, you know, where might we go?
    And the idea that switching from computer-based training to 
more realistic training--I applaud that. And I remember when 
Admiral Harvey said that last year, that it falls on him, and 
we do need these numbers getting better.
    And with that, Mr. Chairman, I yield back.
    Mr. Forbes. Thank you, Mr. Kissell.
    I thank all the members of the committee.
    And I want to also, before we adjourn, once again thank our 
witnesses again for their service to the country and also for 
appearing before the subcommittee today.
    I want to also take a moment to highlight for our 
membership an opportunity to continue this dialogue by joining 
me in a visit to some of our key shipyards that we are going to 
be trying to arrange in the near future. And I think this will 
facilitate a first-hand assessment of our capabilities. And I 
welcome your participation.
    Thank the Navy in advance for organizing those visits for 
us.
    And with that, if there is nothing else, we are adjourned.
    Thank you all very much.
    [Whereupon, at 4:55 p.m., the subcommittee was adjourned.]


      
=======================================================================




                            A P P E N D I X

                             July 12, 2011

=======================================================================



=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             July 12, 2011

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] 68158.01X
    
    .eps[GRAPHIC] [TIFF OMITTED] 68158.02X
    
    .eps[GRAPHIC] [TIFF OMITTED] 68158.03X
    
    .eps[GRAPHIC] [TIFF OMITTED] 68158.04X
    
    .eps[GRAPHIC] [TIFF OMITTED] 68158.05.
    
    eps[GRAPHIC] [TIFF OMITTED] 68158.06.
    
    eps[GRAPHIC] [TIFF OMITTED] 68158.07.
    
    eps[GRAPHIC] [TIFF OMITTED] 68158.08.
    
    eps[GRAPHIC] [TIFF OMITTED] 68158.09.
    
    eps[GRAPHIC] [TIFF OMITTED] 68158.10.
    
    eps[GRAPHIC] [TIFF OMITTED] 68158.11.
    
    eps[GRAPHIC] [TIFF OMITTED] 68158.12.
    
    eps[GRAPHIC] [TIFF OMITTED] 68158.13.
    
    eps[GRAPHIC] [TIFF OMITTED] 68158.014
    
    [GRAPHIC] [TIFF OMITTED] 68158.015
    
?

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             July 12, 2011

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] 68158.16.
    
    eps[GRAPHIC] [TIFF OMITTED] 68158.17.
    
    eps[GRAPHIC] [TIFF OMITTED] 68158.18.
    
    eps[GRAPHIC] [TIFF OMITTED] 68158.19.
    
    eps[GRAPHIC] [TIFF OMITTED] 68158.20.
    
    eps[GRAPHIC] [TIFF OMITTED] 68158.21.
    
    eps[GRAPHIC] [TIFF OMITTED] 68158.22.
    
    eps[GRAPHIC] [TIFF OMITTED] 68158.23.
    
    eps[GRAPHIC] [TIFF OMITTED] 68158.24.
    
    eps[GRAPHIC] [TIFF OMITTED] 68158.25.
    
    eps[GRAPHIC] [TIFF OMITTED] 68158.26.
    
    eps[GRAPHIC] [TIFF OMITTED] 68158.27.
    
    eps[GRAPHIC] [TIFF OMITTED] 68158.28.
    
    eps[GRAPHIC] [TIFF OMITTED] 68158.29.
    
    eps[GRAPHIC] [TIFF OMITTED] 68158.30.
    
    eps[GRAPHIC] [TIFF OMITTED] 68158.31.
    
    eps[GRAPHIC] [TIFF OMITTED] 68158.32.
    
    eps[GRAPHIC] [TIFF OMITTED] 68158.33.
    
    eps[GRAPHIC] [TIFF OMITTED] 68158.34.
    
    eps[GRAPHIC] [TIFF OMITTED] 68158.35.
    
    eps[GRAPHIC] [TIFF OMITTED] 68158.36.
    
    eps[GRAPHIC] [TIFF OMITTED] 68158.37.
    
    eps[GRAPHIC] [TIFF OMITTED] 68158.38.
    
    eps[GRAPHIC] [TIFF OMITTED] 68158.39.
    
    eps[GRAPHIC] [TIFF OMITTED] 68158.40.
    
    eps[GRAPHIC] [TIFF OMITTED] 68158.41.
    
    eps[GRAPHIC] [TIFF OMITTED] 68158.42.
    
    eps[GRAPHIC] [TIFF OMITTED] 68158.43.
    
eps?

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             July 12, 2011

=======================================================================

      
             RESPONSES TO QUESTIONS SUBMITTED BY MR. FORBES

    Admiral Burke and Admiral McCoy. Of the $8.9B reduction in the 
House version of the DoD Appropriation Act for 2012 (H.R.2219), Navy's 
budget request is decreased by a total of $1,982M. These reductions 
would impact future readiness, with $1,795M taken against Navy 
procurement accounts (APN, OPN, WPN, SCN, and PANMC), and smaller 
reductions taken against R&D ($157M), National Defense Sealift Forces 
($26M), and personnel ($25M). Current readiness accounts (OMN and OMNR) 
actually increase by a net total of $21M.
    Congress' support for our current operational forces and the $365M 
increase for ship maintenance funding are greatly appreciated. However, 
the Navy remains concerned about two readiness items that were marked 
in H.R. 2219:

    1.  Public Shipyards were marked $215M for excessive overhead 
funding. As Navy ship construction workload is increasing across the 
FYDP, this OMN reduction detrimentally impacts the execution of all 
Navy shipbuilding contracts, by forcing reductions in manpower 
oversight that will degrade mission execution for onsite management of 
these critical programs at all major shipbuilding private yards. This 
loss of funding will reverse gains made by the Supervisors of 
Shipbuilding (SUPSHIPS) over the last five years, and will result in 
the loss of critical skills. The SUPSHIPs provide contract 
administration and government oversight to ALL Navy shipbuilding 
programs and private sector nuclear repair. In FY12, this includes 
oversight of construction and/or design of SSN 774 Class, CVN 78 & 79, 
DDG 1000 Class, LCS Variants, DDG 51 Class, LPD 17 Class, LHA 6 Class, 
JHSV Class, MLP, T-AGM, T-AGS and T-AKE, as well as nuclear repair of 
submarines and Refueling Complex Overhauls for CVNs. These programs are 
critical to the Navy's ability to deliver quality ships, control cost, 
meet schedules, and successfully recapitalize to 313 ships.
    2.  Deployed steaming days were marked $25M. Deployed ship underway 
steaming days directly support Combatant Commander missions, including 
Joint exercises with allied nations, maritime interdiction operations, 
and anti-piracy operations. Reduced funding for deployed steaming days 
will increase costs in other accounts, given deployed ships that are 
not underway typically must moor/anchor, run generators, and incur 
additional shore support expenses, nearly equal to the costs of 
remaining underway. The net effect of this mark would be a 4% reduction 
in the number of underway days available for Combatant Commander 
missions (from 45 per ship/quarter to 43 per ship/quarter). [See page 
27.]

    Admiral McCoy. Fiscal Year 2013 budget discussions on the 
shipbuilding plan are ongoing. As always, these discussions focus on 
balancing the overall shipbuilding plan, considering warfighting needs 
and industrial base considerations. Deliberations of Navy's force 
structure alignment are subject to a complete review by the Secretary 
of the Navy and OSD; results are pre-decisional until submitted in the 
President's Fiscal Year 2013 budget request. It would be inappropriate 
to discuss internal budget deliberations until officially released in 
President's Budget 2013. [See page 27.]
                                 ______
                                 
            RESPONSES TO QUESTIONS SUBMITTED BY MS. BORDALLO
    Admiral Burke and Admiral McCoy. The Navy is taking a three phased 
approach to address Interoperability issues within its Carrier Strike 
Groups. Phase I is a ``Near Term'' solution providing immediate 
corrections to Aegis platforms and Cooperative Engagement Capability 
(CEC only). This effort is already fielding and will first deploy with 
the John C Stennis Carrier Strike Group.
    Phase II is a ``Mid Term'' solution to correct ``root cause'' 
Interoperability issues across the majority of Navy ships, to include 
Aegis, Ships Self Defense System (SSDS), and E-2 aircraft. The main 
goal of this Mid Term effort is to improve the integration of our CEC 
sensor netting capability with the Link 16 track data management 
process to deliver a consistent common operational picture. The Navy 
plans to demonstrate these interoperability improvements in FY 12 
during a Fleet exercise titled Trident Warrior. This fleet exercise is 
representative of a real world joint operational environment and 
involves a wide range of Navy and Joint operational platforms (ships 
and aircraft). Based on successful testing and completion of Trident 
Warrior 12, the Navy will commence fielding of this improved common 
operational picture capability starting in FY 13.
    Phase III (Far Term) will be a follow on effort to address 
Interoperability in future Navy platforms that will include 
implementing design changes learned from the Mid Term development and 
integrating those changes into future system and platform baselines. 
[See page 15.]
                                 ______
                                 
            RESPONSES TO QUESTIONS SUBMITTED BY MR. KISSELL
    Admiral Burke. The Department of the Navy (DoN) is challenged with 
a strike-fighter shortfall due to F/A-18A-D aircraft reaching the end 
of their service life before the replacement aircraft (the F-35B/C) can 
be delivered into service.
    In December 2010, the Secretary of Defense made changes to the 
Programs of Record for both the F-35B/C and F/A-18E/F programs. The 
DoN's procurement of F-35B/C aircraft was decreased by 60 in the FYDP, 
creating a requirement for 50 additional F/A-18 E/F to negate the 
resulting increase in the projected strike fighter shortfall. To 
address this shortfall, 150 F/A-18A-D service life extensions (SLEP) 
and 41 additional F/A-18E/F aircraft were added to the Fiscal Year 2012 
Navy budget request, and Congress added nine F/A-18E/F aircraft to the 
program of record of 556 aircraft in the Department of Defense and 
Full-Year Continuing Resolution Appropriations Act 2011. These nine 
aircraft, combined with the 41 additional aircraft, satisfied the 
requirement for 50 that resulted from the changes to the F-35B/C 
Program of Record. With the new F/A-18E/F procurement total of 565 
aircraft, the predicted peak shortfall was reduced to 52 aircraft in 
2018.
    The DoN has determined that a 52 aircraft shortfall in 2018 is 
manageable with the mitigations in place. Along with other mitigation 
efforts, if the JSF delivery profile remains unchanged, and the service 
life of 150 F/A-18A-D is extended to 10,000 flight hours, DoN will 
continue to assess the most recent shortfall projection as manageable. 
However, any further delay in the JSF delivery profile will have a 
negative effect on the projected strike fighter shortfall in both 
magnitude and duration, depending on the magnitude, duration, and 
timing of the delay. [See page 22.]
                                 ______
                                 
              RESPONSES TO QUESTIONS SUBMITTED BY DR. HECK
    Admiral Burke. In recent years, to enhance operational readiness at 
sea, we shifted from a supply-driven system, focused on getting the 
right number of Sailors aboard ships, to a demand-driven system, 
focused on getting the right number of Sailors in the correct pay 
grades and with the requisite formal schoolhouse training aboard ships. 
Establishing new schoolhouse courses of instruction for certain Navy 
Enlisted Classification (NEC) codes, the timing of which are properly 
aligned with distribution and assignment practices that deliver a fully 
trained Sailor to the Fleet on time, are essential to getting us to the 
overall goal of 85% Fit. The Chief of Naval Personnel has established a 
Business Improvement Team, which is using proven business models to 
properly align our supply chain and eliminate inefficiencies in 
processes for delivering fully trained personnel to the Fleet on time. 
We are initially focusing on improving Fit in our most critical NEC 
requirements (i.e., those in which the mission cannot be performed 
unless the NEC is properly manned), and have increased Critical NEC Fit 
from 70% to 75% in fiscal year 2011, ensuring that assigned combat 
missions are properly manned. [See page 19.]
    Admiral Burke. The issue is less about sufficient numbers of school 
slots than it is about timing of available school slots with the 
rotation of Sailors. Fit is not currently where it should be as a 
result of friction in Navy's distributable inventory at pay grades E5-
E9, in part due to assignment policies and sea/shore flow imbalance. We 
are working diligently to optimize use of available resources to 
improve all Fit measures, and minimize the amount of time Sailors must 
wait for seat availability. Navy Personnel Command's Quarterly Demand 
Planning Working Group has been working to synchronize rotation of 
Sailors with available school quotas to time the arrival of trained 
Sailors as they are required in the Fleet. In the past year, through 
numerous distribution and administrative enhancements, we have improved 
Fit, from just above 60%, to approximately 70%. [See page 20.]
                                 ______
                                 
            RESPONSES TO QUESTIONS SUBMITTED BY MR. PALAZZO
    Admiral McCoy. The Naval Sea Systems Command continues efforts in 
coordination with industry to identify additional uses of composites in 
shipboard applications. Additional composite applications currently 
include gratings, louvers, screens, stanchions, masts, bow domes, cover 
plates, electrical boxes, shaft covers, and boat deck enclosures. The 
President's budget directly supports the further development and 
integration of composite technology in a number of ship acquisition 
programs. For example, the Navy is currently pursuing several composite 
applications through the OHIO Replacement program. Evaluation of these 
applications is based on a business case assessment that includes 
projected life cycle cost savings. The OHIO Replacement program is also 
planning to invest in development of new manufacturing techniques for 
the bow dome and bow dome boot. These manufacturing techniques have the 
potential to be leveraged for future applications. [See page 16.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             July 12, 2011

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. FORBES

    Mr. Forbes. There are many aspects to material readiness; training 
and manning are only two of them. What are the others?
    Admiral Burke and Admiral McCoy. Navy reports Fleet readiness in 
five pillars. In addition to Training and Personnel (manning), the 
remaining pillars are Equipment, Supply, and Ordnance. From a material 
readiness perspective, depot, intermediate, and unit-level maintenance 
programs are all important factors under the Equipment pillar. A key 
element in the Supply pillar is the availability of spare parts. 
Ordnance readiness is a product of both acquisition of new weapons and 
maintenance of existing stockpiles. An additional element, not directly 
addressed by the Navy readiness pillars, is ``time.'' To get material 
readiness right, we must allow sufficient time for:

    <bullet>  Individual sailors' training and professional growth
    <bullet>  Unit level training
    <bullet>  Execution of maintenance availabilities and unit-level 
maintenance

    When time is compressed, each of these may suffer. The pace of 
operations over the last ten years is in excess of what Navy can 
ultimately support within our existing force structure. This has 
compressed the time available for readiness activities and is reflected 
in negative readiness trends in several areas, as reported in the 
Quarterly Readiness Report to Congress.
    Mr. Forbes. For the last two years you have discussed the degraded 
military readiness of the surface ships and the steps you are taking to 
achieve expected service life on your ships. Given the $367 million 
shortfall in ship depot maintenance that defers 44 availabilities in 
fiscal year 2012, how do you plan on maintaining a ready surface fleet 
that meets its estimated service life? What is the threshold for risk 
on surface ship maintenance?
    Admiral Burke and Admiral McCoy. The cumulative amount of surface 
ship maintenance that can be deferred, without impacting operations or 
the expected service life of our platforms, varies from year to year 
based upon the individual age and materiel condition of our ships, 
current operations, and the next available opportunity to complete the 
maintenance. With the recent establishment of the Surface Maintenance 
Engineering Planning Program, Navy has an improved ability to assess 
the risk of individual ship maintenance deferrals, track deferred work 
to completion, and optimize deferral decisions in a budget constrained 
environment, allowing us to more effectively mitigate shortfalls that 
do occur.
    The Navy remains committed to sustaining the force structure 
required to implement the Maritime Strategy and to funding the full 
surface ship maintenance requirement, as evidenced by the increase in 
the baseline maintenance budget request from $4.3B in FY 2010 to $5.0B 
in FY 2012. The Navy's total FY 2012 budget submission reflects the 
best balance of risk and available resources across the Navy portfolio.
    Mr. Forbes. How will the stand-up of SURFMEPP help improve the 
maintenance tracking and planning for surface ships? What are the 
Navy's plans for re-establishing further intermediate maintenance 
activities?
    Admiral Burke and Admiral McCoy. In 2009, NAVSEA established the 
Surface Ship Life Cycle Maintenance (SSLCM) Activity, which in 2010 
evolved into the Surface Maintenance Engineering Planning Program 
(SURFMEPP)--a shore command to centrally manage surface ship 
maintenance assessments and planning.
    SURFMEPP will improve maintenance tracking and planning for surface 
ships by:

    -  Providing centralized surface ship life cycle management, and 
discipline of maintenance and modernization requirements.
    -  Creating individual ship life cycle maintenance plans that are 
based on the Class Maintenance Plan (CMP) and actual ship condition.
    -  Using the CMP and individual ship life cycle maintenance plans 
to build a Baseline Availability Work Package (BAWP) for each scheduled 
availability that will include a list of non-deviational life cycle 
work that must be accomplished.
    -  Tracking the completion of all required maintenance actions to 
meet ship expected service life.
    -  Ensuring adjudication of all BAWP deferral requests by the 
appropriate Technical Warrant Holder (TWH), and if approved, 
automatically scheduling the deferred work for the follow-on 
availability or window of opportunity, as directed by the TWH.
    -  Integrating, tracking, and monitoring organizational level 
maintenance requirements as part of the surface ship maintenance end-
to-end process.

    To increase intermediate maintenance capacity, the Navy is adding 
manning to the Regional Maintenance Centers (RMCs), whose dual mission 
is to train returning Fleet Sailors in shipboard repairs, and perform 
intermediate level maintenance and repairs. This training will prepare 
them to return to sea with enhanced maintenance and repair skills 
resulting in improved ship readiness.
    Increased civilian and military manning allowed the re-opening of 
selected repair shops at the Southeast RMC in Mayport, Florida in June, 
2011. The requested FY12 budget provides a manning increase of 200 
military and 385 civilians across all RMCs. Additional civilian and 
military personnel increases are being considered as part of POM-13.
    Mr. Forbes. How will the projected backlog of airframe and engine 
maintenance events impact aviation readiness and training?
    Admiral Burke and Admiral McCoy. The projected backlog of airframe 
and engine maintenance in FY12 is not of sufficient size to cause an 
impact to the readiness of deployed Naval aviation units.
    Mr. Forbes. How are the LPD 17 and other ship construction lessons 
learned being formally captured and incorporated into the institutional 
memory and training for all new program managers and key Supervisor of 
Shipbuilding personnel?
    Admiral Burke and Admiral McCoy. Government oversight by the Navy's 
Supervisor of Shipbuilding, Gulf Coast (SSGC) has been revamped with an 
increase in overall SSGC manning by 21 percent from 2005 through the 
end of 2010, including an intensive focus on critical waterfront 
Quality Assurance (QA) billets. All Government QA weld inspectors were 
required to undergo re-training and re-certification in critical 
process areas, and QA oversight was increased across all phases of 
production. Within the last 18 months, the QA organization has been 
restructured to include more surveillance of in process work and 
compliance with formal ship construction procedures. A revamped 
training program has been implemented, providing an ``apprentice to 
subject matter expert'' career roadmap for QA specialists. SSGC has 
implemented a process of ``critical process pulse audits'' to ensure 
HII maintains production quality across the critical shipbuilding areas 
of structure, pipe, electrical, and coatings. Navy critical process 
metrics have been aligned with the shipbuilder to better assess 
performance trends leading to earlier identification of issues when 
they arise.
    In addition, Commander, Naval Sea Systems Command (NAVSEA) sent 
teams of QA experts to assess SSGC ability to provide QA oversight and 
HII's production quality in Spring 2009, July 2010 and January 2011. 
The NAVSEA audits confirmed initial improvement by both SSGC and HII. 
The focus going forward, and a key element of the critical process 
pulse audits, is ensuring sustainment of that performance.
    The LPD 17 Strike Team and INSURV Trial Card databases are two 
tools that are monitored on a consistent basis and have been made 
readily available to the other NAVSEA shipbuilding programs. Lessons 
learned from these two databases are being leveraged across all ship 
construction efforts to increase focus on pre-outfitting and completion 
levels at launch, facilitate more efficient production cycles, and 
further enhance quality assurance processes resulting in improved 
operational effectiveness, reliability, and sustainability.
    Additionally, the program office has recently initiated preliminary 
discussions with the Defense Acquisition University to ascertain the 
possibility and value of adding the recent LPD 17 class issues and 
lessons learned as a case study for inclusion in the program managers' 
curriculum.
    Mr. Forbes. In light of the most recent issues with the LPD 17 
maintenance contract, what is being done to ensure that the correct 
repairs were performed on the ship? What steps are being taken at 
Norfolk Ship Support Activity to ensure that future availabilities do 
not face the same setbacks as LPD 17?
    Admiral Burke and Admiral McCoy. A Navy engineering team from 
NAVSEA and Norfolk Ship Support Activity certified that all work had 
been performed correctly by completing a review of all work and 
objective quality evidence.
    More stringent oversight has been put into place to oversee quality 
of work. For example, all Main Propulsion Diesel Engine work for LPD 17 
Class and LSD 41/49 Class ships is now being conducted under controlled 
work packages for increased oversight.
    Mr. Forbes. As we know, in the recent past, the Navy severely 
reduced its Intermediate Maintenance Activities (IMAs) by closing some 
locations and reducing personnel in others resulting in a loss of 
critical capability and trained personnel. The Navy is currently 
reversing that trend. How many IMAs does the Navy intend to reestablish 
and what is the overall manpower increase anticipated?
    Admiral Burke and Admiral McCoy. The Navy is reconstituting some 
intermediate maintenance capabilities at existing Regional Maintenance 
Centers (RMCs). All RMCs are scheduled to receive additional manning to 
increase intermediate maintenance capacity as well as provide Fleet 
Sailors the opportunity for training in engineering ratings so they 
return to sea duty with journeyman-level capabilities.
    The FY12 RMC manning increase totals 200 military and 385 
civilians. Additional civilian and military personnel increases are 
being considered as part of POM-13.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. KISSELL
    Mr. Kissell. What is the Navy's projection reflected annually for 
the next 10 years of potential increased operational maintenance costs 
on current air platforms that the F-35 is expected to replace?
    Admiral Burke. Navy has reliable projections of maintenance costs 
across the FYDP. Requirements in the Navy FY12 budget submission are 
based on assumed aircraft utilization rates and inventory, and they 
include funding for the Service Life Extension of 150 legacy F/A-18 
aircraft. This funding is adequate for maintenance and sustainment of 
the projected Navy strike-fighter inventory at the time of submission. 
The costs are also consistent with those reported in the Secretary of 
Navy SLEP report to Congress, Appendix 3, as required by Public Law 
111-383 of May 13, 2011. Maintenance for the nine additional F/A-18E/F 
aircraft, provided by Congress in the Department of Defense and Full-
Year Continuing Resolution Appropriations Act of 2011, will be included 
in the FY13 Navy budget submission.
    Mr. Kissell. How will this projected maintenance cost be impacted 
as current air platforms are utilized well past their normal amount of 
flight hours?
    Admiral Burke. Maintenance costs increase with additional flight 
hours above planned service life, due to required inspections and 
modifications. Projected maintenance and sustainment requirements for 
all strike-fighter aircraft currently in inventory are included in the 
Navy FY12 budget submission. In addition to all regularly scheduled 
maintenance for these aircraft, the budget submission requirements 
include the F/A-18 Service Life Extension Program to extend 150 legacy 
F/A-18 aircraft to 10,000 hours, with all remaining legacy F/A-18 
aircraft extended through high flight hour inspections to 8,600 flight 
hours.
    Mr. Kissell. At what date does the Navy identify emerging readiness 
shortfalls due to operational or maintenance requirements as well as 
critical readiness shortfalls for air platforms that are being utilized 
for an extensive amount of time beyond their projected use? Please 
provide a response for aircraft expected to be replaced by the F-35.
    Admiral Burke. The process to identify emerging aircraft readiness 
shortfalls, as well as critical readiness shortfalls, is continuous 
across all Naval aviation platforms. Service life, operational 
utilization, and cost are continuously monitored by Type/Model/Series. 
As issues are identified, they are prioritized in conjunction with the 
annual POM process. The FY12 Navy budget supports the operational and 
maintenance requirements through the FYDP for all aircraft in the Navy 
inventory. The Navy is challenged with a strike-fighter shortfall, due 
primarily to F/A-18A-D aircraft reaching the end of their planned 
service life before the replacement aircraft (F-35B/C) can be delivered 
into service. Based on a Program of Record to procure 556 F/A-18E/F 
aircraft and the FY12 President's Budget Request, the current projected 
peak strike fighter shortfall is 52 aircraft in 2018. The DoN assesses 
that the shortfall, as currently forecasted, is manageable with 
acceptable risk for a limited duration. An increase above the current 
projected shortfall will have a negative impact on operational 
readiness.
    Mr. Kissell. Specifically, if the F-35 does not reach fully mission 
capable status as planned, when does the Navy reach a crisis point in 
short and long term readiness as well as day to day operations as we 
push our current air platforms well beyond their planned service time 
line?
    Admiral Burke. The Department of the Navy (DoN) does not currently 
assess there to be a forseeable ``crisis point'', in either short or 
long term readiness. The DoN has traditionally managed its entire 
aircraft inventory in a purposeful and responsible manner, balancing 
operational requirements with ``best practices'' for maximum 
utilization of aircraft service life. The established process of 
ensuring required preparedness levels are maintained is iterative, and 
constantly under review as new data and assumptions are evaluated.
    Mr. Kissell. How soon will we see the consequences of overextending 
our current air platforms? At what date will the Navy reach the point 
where we do not have the necessary aircraft to fulfill mission 
requirements?
    Admiral Burke. The DoN continues to meticulously manage the flight 
hours and fatigue life of our tactical aircraft. Since 2004, we have 
provided Fleet users guidance and actions to optimize aircraft 
utilization rates, while maximizing training and operational 
opportunities. The F/A-18A-D Service Life Extension Program (SLEP) 
initial request is included in PB-12. The program is designed to extend 
the airframe life of approximately 150 aircraft from 8,600 to 10,000 
flight hours, with all remaining legacy F/A-18 aircraft extended 
through high flight hour inspections to 8,600 flight hours. Through 
extensive engineering analysis, the DoN continues to refine its SLEP 
plan to ensure that those aircraft, whose service lives are extended, 
satisfy all safety of flight and operational requirements. If the Joint 
Strike Fighter (JSF) delivery profile remains unchanged, and the 
service life of 150 F/A-18A-D is extended to 10,000 flight hours (along 
with success in other mitigation efforts), DoN will continue to assess 
the most recent shortfall projection of 52 as manageable, allowing the 
DoN to meet all mission requirements. However, any further delay in the 
JSF delivery profile will have a negative effect on existing 
strategies, and the projected strike fighter shortfall in both 
magnitude and duration.
    Mr. Kissell. Is there or what is the projection for taking current 
air platforms off line as the F-35 begins to integrate into service? If 
so, how is that projection adapting to continued delays in the 
procurement of the F-35?
    Admiral Burke. Both the Navy and the Marine Corps develop separate 
F-35 transition plans that account for each Service's assumptions. 
These transition plans go through periodic reviews that will address 
any changes, including any delays in F-35 procurement. The Naval 
Aviation Master Aircraft Plan (MAP) document, and its associated 
processes, identifies the transition schedule to F-35. The current 
document, MAP 11-01, reflects all of the Navy's Type/Model/Series 
aircraft transitions. This document is reviewed and updated twice a 
year to account for any changes, including any delay in F-35 
procurement.
    As current strike-fighter platforms reach the end of their service 
life, the Department of the Navy (DoN) plans to replace them with the 
F-35. Planned delivery rates for the F-35 will not keep up with current 
projected retirements, resulting in the shortfall in the overall number 
of strike-fighters within DoN. The latest Fiscal Year 2012 President's 
Budget DoN inventory shortfall is 52 aircraft, projected to occur 
toward the end of the decade. The DoN has testified that this shortfall 
is manageable.
    Mr. Kissell. Is the Navy sustaining its training capability of new 
pilots on many of these legacy aircraft? If the Navy is transitioning 
its future needs toward the F-35 how are we mitigating the potential 
need for a much larger pool of pilots capable of flying our legacy 
aircraft as the need for continued service of older aircraft remains?
    Admiral Burke. Yes, Navy is sustaining training capability for new 
pilots on its legacy strike-fighter aircraft. It is not expected that 
legacy pilot training capacity will be reduced until F-35 transitions 
have stabilized. Since aircraft are being replaced on a one to one 
basis in most cases, the number of pilots necessary does not vary much 
between the present and the future. Our Master Aviation Plan process 
allows us to forecast the demand for aircrew to support new and legacy 
platforms. This results in adjustments to Pilot Training Rates at the 
appropriate Fleet Replacement Squadron (FRS) as a matter of normal 
execution.
    Mr. Kissell. How is the Navy adapting its training, if at all, to 
these older aircraft to better ensure the safety of our pilots? What is 
the risk associated with utilizing our aircraft for thousands of hours 
beyond what they were originally intended?
    Admiral Burke. The Navy adapts its training for older aircraft as 
necessary to ensure the safety of our pilots. Safety and mission 
readiness are not compromised in the service life management of the 
Fleet's F/A-18 aircraft. In fact, coincident with the Navy and Marine 
Corp's service life management program, aircrew training readiness has 
been enhanced with improved tactical standardization, a refined 
training syllabus, and improvements to measurable training objectives 
on each training sortie flown. There is a recognized and appreciated 
correlation between aircrew flight hours, flight safety, and combat 
effectiveness. There has been no decrease in aircrew flight hour 
requirements or lowering of training standards simply to preserve 
aircraft life.
    Any extension of service life beyond the initial design life is the 
result of rigorous engineering analysis by NAVAIR, in concert with the 
Original Equipment Manufacturer (OEM). Any extension that results will 
include the necessary inspections and modifications to ensure the full 
operating envelope of the aircraft remains available in support of its 
mission.

                                  <all>

</pre></body></html>
